<html>
<title> - U.S. POLICY IN THE ARABIAN PENINSULA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                  U.S. POLICY IN THE ARABIAN PENINSULA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2019

                               __________

                            Serial No. 116-2

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


       Available:T3http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-360 PDF                WASHINGTON : 2019                            
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota              JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

               Jason Steinbaum, Democratic Staff Director

               Brendan Shields, Republican Staff Director 
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Harden, David, Managing Director, Georgetown Strategy Group......     9
Karlin, Mara, Director of Strategic Studies, School of Advanced 
  International Studies, Johns Hopkins University................    20
Sullivan, Jake, Non-Resident Senior Fellow, Carnegie Endowment 
  for International Peace........................................    27
Singh, Michael, Senior Fellow and Managing Director, Washington 
  Institute for Near East Policy.................................    35

                                APPENDIX


Hearing Notice...................................................    97
Hearing Minutes..................................................    98
Hearing Attendance...............................................    99

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Amnesty International letter submitted by Representative Ted Lieu   103
Statement for the Record from Representative Gerry Connolly......   101


                  U.S. POLICY IN THE ARABIAN PENINSULA

                      WEDNESDAY, FEBRUARY 6, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:06 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The hearing will come to order. Let me 
first of all welcome all of our members to our first hearing. 
Let me welcome as well our witnesses and members of the public 
and members of the press.
    We are here this morning to examine U.S. Policy in the 
Arabian Peninsula. Before I get to my views and recognize our 
ranking member, a bit of housekeeping. Without objection, all 
members may have 5 days to submit statements, questions, and 
extraneous materials for the record, subject to the length 
limitation in the rules.
    One of my goals as chairman of this committee will be to 
underscore the importance of American values as part of our 
foreign policy. When we are at our best, we put democracy, 
human rights, and the rule of law at the center of our conduct 
all over the world. It is the right thing to do. It is a 
reflection of our country's character, its compassion, and its 
generosity; it also makes it easier to advance our interests 
and our security.
    It is with this idea in mind that I focus our first hearing 
on our policy in the Arabian Peninsula. This region has posed 
some of the most vexing problems for our top diplomats and it 
is a top priority of this committee to help move our policy in 
the Gulf toward one that safeguards American interests while 
honoring American values. Our Gulf policy should not have to 
sacrifice one for the other.
    Since the start of the current Yemen conflict in 2015, more 
than 10,000 people have died in airstrikes, 85,000 children 
have died of malnutrition, 14 million Yemenites are on the 
brink of famine, and more than one million suffer from cholera. 
The U.N. calls this the world's worst humanitarian crisis and 
there is no shortage of bad news. In just the last week ,it was 
confirmed that silos holding one quarter of Yemen's wheat 
stocks had been destroyed, and eight more civilians were killed 
when a bomb struck a center for internally-displaced people.
    Yemen was already in crisis before the conflict began, but 
the war has made things far worse. I want to be clear: Saudi 
Arabia and its partners have very real and urgent security 
challenges. The Houthis in Yemen receive support from Iran. The 
Houthis are launching missiles into Saudi territory, 
threatening Saudi civilians as well as American personnel. In 
2016, they launched cruise missiles at a U.S. Navy ship in the 
Red Sea.
    And our country's strategic partnership with Saudi Arabia, 
despite some bumps in the road, has been a valuable one. Saudi 
Arabia plays an important role as a counterbalance to Iran and 
the region. But neither the threats facing the Saudis nor 
America's partnerships with the Kingdom mean that the Saudis 
should have a blank check. We cannot look the other way when it 
comes to the recklessness with which the Saudi-led coalition 
has conducted its operations.
    In Yemen, I am not just talking about one tragic screw-up, 
though that would be bad enough. Coalition's operations have 
been characterized by strike after strike after strike that has 
resulted in unnecessary civilian casualties. A school bus full 
of children, a wedding, a funeral, and these mistakes have been 
compounded by a lack of real accountability. At the same time, 
both the coalition and the Houthi authorities have prevented 
humanitarian assistance from getting to where it is needed 
most.
    So we need to stay focused on ending the suffering in Yemen 
and advancing a political solution. In the long term, I am 
hopeful about the U.N. peace process led by Special Envoy 
Martin Griffiths and where these negotiations can lead. The war 
in Yemen poses significant challenges, but we cannot view the 
issues in the Arabian Peninsula solely through that lens.
    Our relationship with the Saudis is very different now than 
it was even 6 months ago. The heinous murder of journalist 
Jamal Khashoggi shocked the world and the administration seemed 
content to sweep it under the rug and move on. That is not 
acceptable to me. In addition, new reporting suggests that the 
weapons the United States and the Saudis sold the Emirates are 
now ending up in the hands of al-Qaida terrorists, Houthi 
rebels, and Iranian intelligence officials as well. And of 
course, the ongoing imprisonment of women activists including, 
Loujain al-Hathloul and Hatoon al-Fassi, and other human rights 
abuses cannot be ignored.
    So it can no longer be business as usual. We need to see a 
real change in Saudi behavior. We need to push for 
accountability. And we need to understand what has driven our 
own administration's policy in this part of the world.
    I want to assure everyone listening today that today's 
hearing and markup presents the beginning of this committee's 
focus on these issues. We will not sweep these questions under 
the rug, and we will push for changes that are absolutely 
necessary to get the U.S.-Saudi relationship back on track.
    I am interested in hearing from our witnesses on how to 
grapple with these challenges, but first I would like to 
recognize our ranking member, Mr. Mike McCaul of Texas, for any 
opening remarks he might have.
    Mr. McCaul. I would like to thank my good friend, Mr. 
Engel, for calling this important hearing. The United States 
has key national-security interests in the Arabian Peninsula, 
which is why we spent decades cultivating close partnerships 
with the Gulf Cooperation Council countries. We have had a long 
history of working together to advance our shared strategic 
interests.
    Even so, each of these partnerships has its own nuances and 
complexities. We have often encouraged these partners to make 
improvements on areas such as human rights and religious 
freedom, such as through our annual State Department reports. 
We have also had longstanding concerns about terror-financing 
and other support for terror emanating from the Gulf.
    We are grateful for the progress that has been made in 
recent years, although there is still much work to be done. And 
like many, I was heartened to hear about the reforms on the 
horizon in Saudi Arabia, such as lifting the ban on women 
driving.
    In the context of this hope for the Kingdom's future, I was 
both appalled and deeply saddened by the news of Jamal 
Khashoggi's murder. Jamal's murder was a major setback in our 
relationship with Saudi Arabia, a gruesome and disturbing crime 
that sadly showed how much further the Saudis need to go. 
Nothing like this crime can happen again, and everybody 
responsible must be held accountable.
    This fall, we heard distressing reports that women's rights 
activists had been not only imprisoned but tortured. We need to 
see serious changes in the Saudis behavior with respect to 
dissidents and ex-patriots to regain our trust. The lesson of 
this terrible event needs to be that intimidation and violence 
by any government against peaceful dissent will be met with 
strong disapproval by responsible nations.
    All of our witnesses have distinguished records of U.S. 
Government service working on Middle Eastern issues. Amid daily 
reports about the fragility of the United Nations Special Envoy 
to Yemen's ongoing peace efforts, I look forward to hearing 
from our witnesses about what the United States can do to bring 
a sustainable, political solution to the conflict that will 
help mitigate the urgent humanitarian crisis.
    Unfortunately, today's discussion of the Yemen War is 
complicated by the markup of what I believe to be an ill-
advised bill. I will say more later, but I am alarmed that we 
are abusing a privileged War Powers procedure to address 
questions where U.S. forces are not involved in combat. Not 
only does it fail to meaningfully address the security 
cooperation issues we face in the region, it also creates a 
dangerous precedent that could disrupt U.S. security 
cooperation with partners all around the world.
    With that said, the number of civilian deaths during this 
conflict is deeply concerning. Improvements in humanitarian 
access are critical to preventing the crisis from worsening. 
Every effort must be taken to eliminate civilian casualties 
from air strikes. I hope this hearing will contribute to the 
conversation about what applicable and appropriate steps the 
United States can take to decrease the threat that this 
conflict poses to civilians rather than adding fuel to the fire 
of an unproductive conversation about War Powers.
    I fear that many of the recent discussions regarding the 
Yemen conflict have obscured the incredibly damaging role that 
the Houthis are playing. Recent reports have documented the 
Houthis diversion of vital food aid from people in need and the 
brutal torture of detainees.
    Iran is also playing an incredibly harmful role in this 
conflict by supplying the Houthis with ballistic missiles and 
other forms of support. The U.N. itself has reported that Iran 
has violated U.N. Security Council resolutions through their 
support for the Houthis. I hope our witnesses today will 
discuss how the United States and our partners can effectively 
respond to Iran's role in this conflict.
    We can also not lose sight of the fact that significant 
terrorist threats continue to emanate out of Yemen. Director of 
National Intelligence, Dan Coats, testified last week that al-
Qaida affiliate in Yemen, AQAP, remains one of the largest and 
most capable terrorist groups in the world. We are grateful to 
our Gulf partners for their help in countering this threat.
    I dealt with AQAP and their external operations for many 
years as chairman of the Homeland Security Committee, and I 
hope our witnesses can speak to whether our current 
counterterrorism strategy in Yemen is as effective as it could 
be or whether any changes need to be made. And with that Mr. 
Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    It is now my pleasure to introduce our witnesses today.
    Mr. David Harden, Managing Director of the Georgetown 
Strategy Group, Mr. Harden previously served as Assistant USAID 
Administrator in the Bureau for Democracy, Conflict, and 
Humanitarian Assistance as well as numerous other roles across 
nearly two decades at USAID, including directing USAID's 
operation in Yemen until last year.
    Dr. Mara Karlin, the Director of Strategic Studies of the 
Johns Hopkins University School for Advanced International 
Studies, Dr. Karlin has served in national security roles for 
five secretaries of defense, most recently as the Deputy 
Assistant Secretary of Defense for Strategy and Force 
Development.
    Mr. Jake Sullivan of the Carnegie Endowment for 
International Peace, Mr. Sullivan was National Security Advisor 
to Vice President Biden and also the Director of Policy 
Planning and Deputy Chief of Staff at the Department of State.
    Mr. Mike Singh, Managing Director of the Washington 
Institute for Near East Policy, he was Senior Director for 
Middle East affairs at the White House from 2007 to 2008, and a 
director on the NSC staff from 2005 to 2007. Earlier, he served 
as special assistant to Secretaries of State Powell and Rice, 
and at the U.S. Embassy in Tel Aviv.
    This is a distinguished panel and we are delighted to have 
them with us this morning. Thank you very much. I would like to 
say for the record that we invited administration witnesses to 
be part of this discussion but we were told that the relevant 
State Department officials were traveling this week. So we hope 
to hear from them soon in the future.
    Our witnesses' testimony will be included in the record of 
this hearing, and I would now like to recognize our witnesses 
for 5 minutes each and we will start with Mr. Harden.

   STATEMENT OF DAVID HARDEN, MANAGING DIRECTOR, GEORGETOWN 
                         STRATEGY GROUP

    Mr. Harden. Thank you, Chairman Engel, Ranking Member 
McCaul, and the distinguished members of this committee. Thank 
you for having me today. Last night I just got back from the 
Middle East. I was in Tel Aviv, Ramallah, Amman, Riyadh, 
Dammam, and Abu Dhabi, so I hope that I have some fresh 
perspectives to bring.
    My perspective is typically very much focused on the 
economics and the humanitarian angles. I will begin with Yemen, 
but I want to take a moment to also look at the broader issues 
that the Arabian Peninsula will face in the coming decade, and 
then I offer one big idea for this committee.
    On Yemen, Chairman Engel set out the horrific statistics. 
The tragedy is overwhelming. The challenges, though, is that 
the political process, political accommodation, is not likely 
to succeed in the short term. We have great respect for the 
U.N. Envoy, but the Stockholm Agreement is fragile, reversible, 
and likely not to hold. There will likely be an attack on 
Hodeida sometime this year. There is no military solution.
    And so within this context I offer a very bleak, short-term 
assessment of Yemen. It is hard to figure out a way forward. I 
offer humbly an economic set of policies which are very 
detailed and in my statement and I am happy to answer questions 
about those during the hearing. But fundamentally, the only 
mechanisms that we have available to us right now are to 
increase the purchasing power at the household level for 
families.
    We can do this by improving access and allowing greater, 
more robust trade to come in from every direction. Humanitarian 
assistance is 5 percent of the total basic commodities that 
come into Yemen, 95 percent of it is private sector trade. 
Nothing will work unless more trade; more basic commodities 
come in faster and at cheaper prices.
    Second, the currency needs to be stabilized. The currency 
collapse as a result of the splintering of the bank has been 
the single driving force for the humanitarian collapse. Third, 
more revenue, more income has to come in to individuals and to 
households, and that means paying salaries for teachers, 
sanitation workers and healthcare providers. If we can get the 
economics right, then there is a prospect for creating a bit of 
a space to push forward political process and political 
accommodation.
    The economics alone will not work, it is not sufficient. We 
also need a stabilization strategy and at the moment there is 
not one. We have to, and when I say ``we,'' I mean the 
international community together, collectively, has to envision 
a strategy that will give some hope to the people, address 
underlying grievances, provide basic services, and jobs and 
economic opportunity. Then if we get it right, there could be 
some opportunity forward.
    But the tragedy of Yemen will stay with us longer than what 
we can bear. What worries me though is within the context of 
Yemen and its exhaustive State, as well as what is happening in 
Syria, Iraq, and Afghanistan, I deeply worry that the United 
States may turn its back on the Middle East and we do so at our 
own risk.
    There is a rising tide of neo-isolationism. The 
opportunities and the broad trends that are facing the Arabian 
Peninsula over the next decade are both exciting and represent 
inflection points. So clearly we know and we see that there is 
a new great game in the Arabian Peninsula and in the Horn of 
Africa where China and Iran and Turkey and Russia are seeking 
influence, markets, and power.
    Second, we know that there will be rapid and impressive 
technological changes and changes to capital structures and 
capital flows. The United States may be a part of this, but we 
also may not be the leader in this. And then last, it is 
important not to discount the rising aspirations of the Gulf 
States. There is the Saudi 2030 vision of course; the UAE is 
setting forth a 50-year plan in just a couple of years. These 
rising aspirations provide both opportunity and risks for us.
    So with that how do we manage? How do we go forward? How do 
we get out of this Middle East purgatory? So I proposed, in my 
statement to you, a crisis response core that would allow us to 
more effectively, with 21st century technology, agility, 
capabilities, bring talent to the most complex crisis and 
achieve our overriding goals of a secure Arabian Peninsula and 
advancing American security, economic, and political interests.
    I turn it back to you, Chairman. Thank you for the time and 
I look forward to your questions.
    [The prepared statement of Mr. Harden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Engel. Thank you, Mr. Harden.
    Dr. Karlin.

         STATEMENT OF MARA KARLIN, Ph.D., DIRECTOR OF 
 STRATEGIC STUDIES AND ASSOCIATE PROFESSOR SCHOOL OF ADVANCED 
         INTERNATIONAL STUDIES JOHNS HOPKINS UNIVERSITY

    Ms. Karlin. Chairman Engel, Ranking Member McCaul, and 
members of the House Committee on Foreign Affairs, thank you 
for the opportunity to appear before you today. This morning I 
will summarize my written remarks which I submit for the 
record.
    Having examined the Middle East as a national security 
policymaker and as a scholar for nearly two decades, I can 
confidently say this is a critical time to assess it. Regional 
challenges are growing thornier and the opportunity costs of 
U.S. involvement are deepening. While we cannot fully extricate 
from this region, we must recognize it is less of a priority 
than it once was, particularly in contrast to Asian and Europe 
which must command more of our attention.
    As U.S. policy currently stands, the United States exists 
in a kind of purgatory. We are too distracted by regional 
crises to pivot to other global priorities, but we are not 
invested enough to move the region in a better direction. This 
worst of both worlds approach exacts a heavy price particularly 
in the Arabian Peninsula. Simply put, today we should focus on 
how and in what ways the United States can pursue a more 
realistic and sustainable approach toward the region, not 
whether we should do so. This rethinking is long overdue.
    Looking ahead, U.S. policy in the Arabian Peninsula must 
acknowledge and respond to three key dilemmas. First, how to 
ruthlessly prioritize despite terrorism's pull. Recommendations 
for a new U.S. approach are often binary. The maximalist 
version ignores the rockiness of U.S. efforts to date in places 
like Iraq and Libya and dismisses how challenging it would be 
to sustain domestic political support for the large, long-term 
investments that fundamentally altering this permissive 
environment for terrorism and chaos would require.
    The minimalist version ignores the comparative advantage 
that America's global role has afforded it and underestimates 
just how dangerous the power vacuum could be should Washington 
withdraw from the region. It is foolhardy to believe we can or 
should pursue either approach without substantial costs in 
blood, treasure, and time.
    In the Arabian Peninsula the United States should focus on 
three key issues: Protecting freedom of navigation in the 
region's major maritime passages; preventing oil producers or 
troublemakers from destabilizing the flow of oil; and 
containing actors hostile to Washington, including terrorists. 
While terrorism remains a very real challenge, the United 
States must approach it in a smarter and more sustainable way. 
We must set clear guidelines about when and where we will use 
force.
    The second dilemma, how do we recognize our friends' value 
but also their flaws? Allies and partners are the United 
States' global and comparative global advantage. The U.S. 
military will always fight alongside allies and partners, yet 
some will be more capable than others. We will perennially face 
an expectations mismatch between our needs and capabilities and 
theirs.
    Transforming self-interested and shortsighted regional 
partners into reliable long-term allies is wishful thinking, at 
least not without incurring enormous costs and long-term 
commitments. Therefore we must rethink how we work with 
regional partners. We should not just focus on the promise and 
ignore the peril of outsourcing U.S. military campaigns 
especially in the Arabian Peninsula where our partners come 
with overwhelming funding and complicated politics.
    This model of by, with, and through that the U.S. military 
likes to discuss works only if we recognize this cooperation as 
a political not technical exercise, and if the partners on the 
ground share our priorities. Success requires setting realistic 
goals, clearly and actively communicating our expectations to 
our partners, and constantly assessing how well they are 
meeting the objectives we seek. While we cannot control 
everything our regional partners do, we can control where we 
set our own limits in the relationship in the support that we 
provide.
    The third dilemma is how do we recalibrate U.S. resources 
despite the U.S. military's predominance in this region? Since 
the September 11th attacks our approach to this region has been 
overwhelmingly driven by military tools. Given the nature of 
regional threats and the broader security environment, this 
approach is both costly and increasingly ineffective. We must 
fully adjudicate thorny tradeoffs in this region and today on 
key questions of U.S. policy toward the region different parts 
of the interagency are completely out of sync.
    Our military, diplomatic, and economic tools are often 
giving different messages. That is bad for U.S. interests. Most 
of this region's challenges will not be fundamentally solved by 
military tools, but through active diplomacy and political 
agreements. Executing a nuanceD and effective approach requires 
substantial and capable staff who have meaningful regional 
expertise, but right now the U.S. approach is too much sword 
and too little pen. We must recognize there is no such thing as 
a purely operational presence in the Middle East.
    Let me just wrap up with a few key points. One, Iranian bad 
behavior in this region is a serious problem. Two, while a Gulf 
security architecture to counter Iran would be helpful, mutual 
hatreds and long-simmering tensions over regional competition 
make it unlikely to emerge. And third, the astrategic and 
ineptly executed Emirates and Saudi military campaign in Yemen 
has only benefited Tehran. There is little evidence that U.S. 
support to these militaries as they wage their war in Yemen has 
made their execution of this conflict meaningfully more 
effective.
    Thank you very much for your time.
    [The prepared statement of Ms. Karlin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Engel. Thank you very much.
    Mr. Sullivan.

    STATEMENT OF JAKE SULLIVAN, NON-RESIDENT SENIOR FELLOW, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Sullivan. Thank you Chairman Engel, Ranking Member 
McCaul, members of this committee. I appreciate the opportunity 
to appear before you to talk about these important subjects and 
especially to appear alongside such talented colleagues on this 
panel. And at the outset I would like to make three points to 
help frame the discussion.
    First, Congress can and must take action to end U.S. 
support for the war in Yemen and help pave the way for a 
diplomatic solution. The Obama Administration's initial support 
for the Saudi-led coalition ultimately turned into the blank 
check of current policy and the moral and human costs are 
staggering, as both the chairman and the ranking member pointed 
out in their comments. U.S. assistance and U.S. policy today is 
contributing to the continuation of what is now the world's 
worst humanitarian crisis.
    Now to be clear, the Saudi-led coalition does not bear all 
the responsibility for the violence and suffering in Yemen. The 
Houthis have chosen war over diplomacy too and they have 
immense blood on their hands and Iran continues to provide them 
material support and cheerleading. But as Dr. Karlin just said, 
when it comes to countering the Iranian threat our current 
approach has done nothing but make things worse. It has 
strengthened the Houthis and it has aided Iran. It has also 
empowered extremist groups including some who are now in 
possession of U.S. weapons and technologies.
    The right approach for the United States is to put pressure 
on the coalition to curtail its military activities including 
by withdrawing U.S. military assistance while increasing 
constructive efforts to reduce Iran's support for the Houthis. 
Recent congressional pressure has helped rein in some of the 
worst instincts of our partners, opening space for diplomatic 
negotiations that could build on the Stockholm Agreement. But 
Congress should not stop there.
    I believe the War Powers Resolution that passed the Senate 
last year is worthy of support and that Congress should send 
that resolution to the President's desk, and I look forward to 
discussing that with the committee today. I also commend 
legislative proposals to prohibit logistical support and the 
sale and transfer of offensive weapons. The goal should be to 
end U.S. assistance for this campaign while encouraging the 
administration to take a more active role in diplomacy to reach 
a political solution to the conflict.
    Second, Congress should reinforce its commitment to 
defending the territorial integrity of regional partners in the 
face of persistent threats from State and non-State actors. 
Iran is continuing to provide assistance to the Houthis, as the 
ranking member said, to help them attack Red Sea shipping as 
well as firing missiles at land-based targets in Saudi Arabia 
and the UAE.
    An end to offensive support for the war in Yemen should be 
accompanied by an increase in tailored defensive support for 
our partners to counter these threats. This could include 
increased maritime patrols on the Saudi Red Sea coast and a 
renewed push to install more sophisticated missile defense 
systems in the Gulf. More broadly, Congress should hold the 
administration accountable for failing to produce a coherent 
Iran strategy that actually ties available means to realistic 
objectives. I hope we can discuss that more today.
    Third, this hearing should mark the start of a serious 
bipartisan strategic review of the U.S.-Saudi relationship. Too 
often in Washington talk of Saudi Arabia and the issue of Saudi 
Arabia centers around a cartoonish binary, unconditional 
support or throwing the relationship away. This is both a silly 
and counterproductive way to approach a complex partnership in 
a complex time.
    If any good can come in the aftermath of the shocking 
murder of Jamal Khashoggi it should be a serious conversation 
about how we establish a sustainable relationship between our 
two countries that advances shared interests while accounting 
for rather than ignoring or wishing away actions that undermine 
those interests and run contrary to our values.
    The U.S. and Saudi Arabia do still share interests 
including in countering terrorism and in countering Iran. But 
for the U.S. that cannot mean blind deference to the judgment 
of regional partners. That approach has only empowered the 
leaders in Tehran while undermining American values. There is a 
better way.
    Instead of continuing to support a strategically disastrous 
war in Yemen, the United States should be prioritizing healing 
the rift in the Gulf Cooperation Council, considering how to 
put pressure on Iranian maritime shipments in support to the 
Houthis, pushing for theater missile defense arrangements, and 
exercises influence in Iraq, Lebanon, and Qatar where there are 
natural constituencies for American support.
    At the same time, the U.S. should elevate the priority of 
reform and human rights in the relationship with Saudi Arabia 
especially in light of the recent repressive actions and trends 
that we heard about at the outset of this hearing. All of this, 
in addition to the continuing need for accountability with 
respect to the Khashoggi murder, leads to the inexorable 
conclusion as you said, Mr. Chairman, that it cannot be 
business as usual in this relationship.
    Thank you again for inviting me here today and I look 
forward to answering your questions.
    [The prepared statement of Mr. Sullivan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Engel. Thank you, Mr. Sullivan.
    Mr. Singh.

    STATEMENT OF MICHAEL SINGH, SENIOR FELLOW AND MANAGING 
      DIRECTOR, WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Singh. Thank you Chairman Engel, Ranking Member McCaul, 
and members of the committee. I appreciate the invitation to 
speak before you and it is an honor to appear at your first 
hearing leading this committee.
    The U.S. is undergoing a strategic shift in the world from 
a grand strategy focused on counterterrorism to one that is 
focused on great power competition and I think there is broad 
bipartisan agreement that this is the right trajectory for the 
United States.
    What is less clear though, is what this implies, what this 
means for America's strategy in the Middle East. Some have 
suggested it means basically shifting our resources away from 
this region and trying to disentangle ourselves from it. I 
think there is two big problems though with this concept, with 
this idea. One is that we still have very important interests 
in this region. Counterterrorism is one of them, 
nonproliferation is another, and the list goes on.
    Second, is that the Middle East, itself, is and always has 
been, frankly, vital to great power competition. For example, 
our Asian allies as well as China are highly dependent on the 
energy resources coming from this region even if we are not. So 
the key question in my mind is how do we continue to secure our 
interests in the region and prevent inroads by our rivals while 
reallocating our resources elsewhere?
    The clearest way to do this, is to work as much as possible 
through allies. Of course this is easy to say and it is much 
harder in practice as some of my colleagues have noted. Just 
stepping back a bit, since the regional turmoil that broke in 
this region in 2011 and since the U.S. has started to, let's 
say, sort of disengage a bit strategically, we have seen a 
complex dynamic emerge in the region.
    You have three ad hoc blocks of power in this region which 
are jockeying against one another for preeminence. You have a 
sort of bloc of conservative powers, the Saudis, the Emirates, 
tacitly joined by Israel and in an interesting way the center 
of gravity in the Arab world has really shifted in their 
direction. You have a more Islamist-oriented bloc consisting of 
Turkey and Qatar and they often work together. And then you 
have a bloc that is hostile to the United States consisting of 
Iran and its partners, Syria, and various proxies like 
Hezbollah.
    This rivalry, this three-way rivalry combined with the 
phenomenon of State actors moving into the region's security 
and governance vacuums has prompted an unprecedented burst of 
regional interventionism. This just is not Saudi Arabia and the 
UAE intervening in Yemen. It is the UAE and Qatar and Libya, 
the UAE and Turkey across the Horn of Africa, Iran intervening 
in Syria, Iraq, Yemen, and so forth. The list goes on, frankly. 
And those results, far from advancing our interests have 
contributed to instability and set back our interests.
    So if we are going to harness our allies' growing 
capabilities, their willingness to take the initiative, we are 
going to need to overcome a lot of obstacles. And I agree, with 
many of my colleagues about those obstacles. It is their 
limited military effectiveness. It is the poor coordination and 
the disputes we have seen among our allies.
    Their human rights deficiencies, I think this is most 
egregious in the case of the assassination of Jamal Khashoggi, 
but frankly these problems are endemic to the region. It is the 
economic problems facing our allies and, frankly, our Gulf 
partners all face a common set of economic problems. And it is 
the role of spoilers like Iran and the increasing inroads being 
made by external powers like Russia and China and in my written 
testimony I go into detail about these and some proposed 
solutions for overcoming them.
    But on a couple of specific topics which you, Mr. Chairman, 
and you, Ranking Member McCaul, raised on the topic of 
suspending or placing conditions on arms sales or security 
assistance, look, in my view, having worked on security 
assistance, it should always begin with a common conception of 
our shared interests and a shared strategy for tackling a 
particular problem.
    In the case of a conflict, our support should be 
forthcoming only if we think our partners have realistic 
objectives and a realistic timetable for accomplishing them. 
Conditionality should be built in upfront in the initial 
conversations. It should not just be something imposed by 
Congress. I think, frankly, we should also expect our partners 
to follow international norms of warfare.
    But even as we promote human rights, promote reforms; we 
need to be careful about tying these issues together because, 
frankly, doing so has a poor track record. Our partners tend to 
resent the imposition and frankly, our aid is often 
insufficient leverage to accomplish the goals that we set for 
it. I think it is better to avoid that temptation of tying 
everything together, but I think we need to accept that we will 
work on those issues separately, some will see faster progress, 
some will see slower progress.
    In Yemen, we need to bear in mind two big picture points in 
Yemen. First, this is not primarily a Saudi-Iranian conflict in 
Yemen. It has its roots in the disintegration of the Saleh 
regime in 2011 and the ousting of the legitimate transitional 
government by the Houthis.
    Second, withdrawing our military support is not going to 
end the war or ease the problems that Yemen is experiencing. 
There are multiple conflicts in Yemen. The Houthis against the 
coalition, there is a north-south conflict, there is the 
conflict with AQAP and ISIS and so forth, and all of those will 
go on if we withdraw.
    So rather than walking away from our partners, it is 
important that we work with them to craft a strategy for the 
next phase of this war, which we and they believe should 
primarily be a political phase of the conflict. This means, 
first and foremost supporting the U.N.-led mediation, hopefully 
building on it. And if those talks falter, as they may, it 
means narrowing the scope of the conflict to what really 
matters most and that is improving humanitarian access, 
countering Iranian proliferation, and deterring missile and 
rocket attacks.
    A third point, we need to reinvigorate our diplomacy in the 
region. In too many Gulf States, especially Saudi Arabia, you 
have too many issues in the hands of too few officials and that 
creates a fragility in the relationship. We need to use our 
influence not just to shape the Saudi's behavior but to expand 
the number of points of contact especially at the working 
level. But encouraging our partners, frankly, to delegate means 
practicing this discipline ourselves, and so we need to get 
officials into place in Saudi Arabia and in Middle East 
policymaking positions at State and DoD.
    And just a final point, even as we seek to work through 
allies, which we will do more and more in this region and maybe 
others, we cannot forget that U.S. leadership remains 
indispensable in this region. There is certain things that we 
can do that our allies cannot, for example, building 
international coalitions to counter ISIS or to counter Iran's 
problematic behavior. We bring unique capabilities to the table 
especially when it comes to countering some emerging threats 
like cyber threats, maritime threats, and missile threats.
    And to me, our forward-deployed presence is an essential 
stabilizing factor in the region. I am a little bit concerned 
about the talk that we hear now about bringing the troops home, 
because a lot of our deployments in the region are sustainable, 
they are low-cost, and, frankly, if we depart especially with 
Russia and China coming in, especially with A2/AD technology 
spreading, getting back in, will be much more difficult. Thank 
you very much.
    [The prepared statement of Mr. Singh follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Engel. Thank you very much, Mr. Singh.
    I now recognize myself for 5 minutes for some questions. 
Earlier this week, CNN reported that Saudi Arabia and the UAE 
has transferred U.S. weapons to al-Qaida-linked extremist 
groups fighting in Yemen. The report also said that American 
weapons are being used by the Houthi rebels which means they 
have probably also been in the hands of the Iranians.
    These reports are very troubling, and the Trump 
administration must investigate further and work to prevent 
this from happening again. In light of these allegations, 
should Congress pursue greater restrictions on offensive 
weapons to the Saudi coalition? What benchmarks should they be 
required to meet before sales and transfers can continue?
    Let me start with you, Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman. I was equally 
troubled by these reports which indicate that sophisticated 
American weaponry is now finding its way into the hands of al-
Qaida linked extremists as well as the point you made which is 
that Iranian intelligence operatives now have the chance to 
take some of this weaponry and materiel, pull it apart, and 
learn quite a bit about their adversary the United States' 
capabilities and capacities.
    And this underscores the risk of continuing to provide 
offensive military capabilities to a coalition that is using 
them in disregard of human rights and civilian casualties, but 
is also using them in disregard of effective military action 
including cutting all kinds of deals with al-Qaida linked 
extremists throughout the country, some to get them to fight 
with the coalition, some to pay them off to just go back into 
the countryside with all of these weapons and the money to boot 
to only buildup more strength to potentially threaten the 
United States and its partners.
    And so my bottom line view in answer to your question, Mr. 
Chairman, is that the time has come for the United States to 
cease providing offensive weapons for purposes of use in Yemen 
altogether.
    Chairman Engel. Thank you, Mr. Sullivan.
    Mr. Harden, let me ask you this. In a post-conflict 
scenario, which is hard to imagine at this point, what should 
be the responsibility of the Saudi coalition in rebuilding 
critical infrastructure in Yemen? What message should the 
United States be sending to ensure that that planning starts 
now?
    Mr. Harden. Well, I think for sure the Saudis need to be 
one of the lead donners and forces in the reconstruction of a 
post-conflict Yemen. I do not think it should be limited to 
just the Saudis. I think the UAE and the rest of the Gulf 
States should contribute, but overwhelmingly it should be the 
Saudis.
    One additional point I would just add is that rebuilding 
alone is not enough. The trading opportunities that Yemen would 
have with Saudi and high-end markets are very important and I 
would encourage the Saudis to look at that as a means of both 
helping to provide economic opportunity to Yemen and 
integrating into the world economy better. Thank you.
    Chairman Engel. Let me ask Dr. Karlin and Mr. Singh if they 
would care to comment on any of the questions I asked Mr. 
Sullivan and Mr. Harden.
    Ms. Karlin. I would just like to add a little bit to that 
first question on the possible movement of U.S. materiel to 
unsavory actors. The U.S. military has an extremely rigorous 
end use monitoring system, so whenever materiel is given to our 
partners and allies around the world it is incumbent on them to 
keep a close eye on where it is and U.S. embassy officials 
regularly will go and check to confirm that materiel is where 
it is supposed to be.
    This is probably among the most worrisome things I have 
heard in our cooperation with these militaries and that is a 
pretty high bar given some of the things we have been 
discussing so far. Of all things that would make me consider an 
immediate halting of our cooperation, this is actually on the 
top of the list.
    If we cannot trust that the sophisticated materiel we give 
our partners and allies sticks with them, then I think we 
actually need to rethink the entire relationship. If I were in 
your position I would call on a serious investigation by the 
Pentagon of what happened here and what went wrong and who will 
be held responsible, both on the U.S. Government and with our 
partners.
    Chairman Engel. Thank you.
    Mr. Singh.
    Mr. Singh. Well, I agree. I would say that from my point of 
view end use monitoring and end use verification, this is 
always very difficult in these types of conflict situations. We 
saw similar phenomena in Syria and in Iraq where weapons ended 
up in the hands of ISIS, oftentimes because they were dropped 
on the battlefield by our partners.
    I do think that the right response is not to say, well, 
let's cutoff all assistance as a result. I think the right 
response is to look more carefully into these reports, find out 
what is happening, why it is happening and so forth, and then 
act appropriately. Work with our partners, if necessary, to 
improve end use verification.
    Chairman Engel. Thank you.
    I would now like to recognize the ranking member for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I kind of look at this as sort of a geopolitical interest, 
a tricky area of the world for sure. But I see Iran. I see 
Saudi. I see Yemen. I see Israel. Iran is in Yemen.
    Mr. Singh, can you tell us what Iran is doing in Yemen and 
why are they supporting the Houthis?
    Mr. Singh. Thank you.
    From what I have seen, the Iranians have provided materiel 
to the Houthis and it is possible they have also provided some 
level of, say, training and even operational assistance for the 
systems they provide the Houthis. So, for example, the rockets 
and missiles that are fired into Saudi Arabia, the missiles 
that have been fired in the Bab-el-Mandeb Strait that have 
endangered international shipping and the U.S. Navy, we suspect 
a lot of that traces back to Iran.
    Why is Iran doing this? I think Iran has a national 
security strategy in the region which focuses on keeping 
potential adversaries destabilized. I think Iran wants to see 
instability on the border of Saudi Arabia so that Saudi Arabia 
has to focus south and not focus on Iran proper. It is the same 
concept that Iran follows in Lebanon keeping pressure on 
Israel's northern border as a sort of tool to use leverage 
against Israel.
    That is why I think that, frankly, the Iranians probably do 
not have much interest in the resolution of this conflict in 
Yemen.
    Mr. McCaul. So they are supporting the Houthis I guess, 
presumably, against the Saudis. Does this affect Israel in any 
way?
    Mr. Singh. I think the Israelis as well as our other allies 
in the region are very concerned about Iran's cultivation of 
proxies across the region. Lebanon, Syria, Iraq, Yemen, they 
are trying to do it Bahrain and probably trying to do it 
elsewhere as well, because what we have seen is that there is a 
sort of transfer of knowledge, equipment, funding, and so forth 
between these proxies.
    Hezbollah has boasted about assisting the Houthis. 
Hezbollah is active in Iraq. We have seen Bahraini Shia 
extremists go and participate in Iraqi Shia militias and so 
forth. So it is that network of Iranian proxies across the 
region, the transfer of weaponry, technology, funding, and so 
forth that is concerning to all of our allies in the region.
    Mr. McCaul. OK. So in my briefings, and I had one just 
yesterday, our involvement in the region is not one of engaging 
in hostilities against the Houthis, but rather a 
counterterrorism mission against AQAP, al-Qaida in the Arabian 
Peninsula, and ISIS. I was chairman of Homeland Security for 6 
years. Every time we have an external plot threat briefing in 
the classified space,it was always coming out of AQAP wanting 
to hit airliners, bring down airplanes.
    Can you tell us--and DNI Coats has testified that AQAP 
remains one of the largest and most capable terrorist groups 
globally. In your assessment, is our mission limited to 
counterterrorism in Yemen and not a broader as some would say 
against the Houthis, is that a righteous mission for us to be 
there?
    Mr. Singh. Oh absolutely, Congressman. I think that 
America's direct involvement in Yemen is limited to our actions 
against AQAP and other affiliated groups. That mission has 
continued throughout this conflict which has obviously posed 
big challenges for that mission. But if you look at the record 
over the past year or 2 years, in fact, I think we have made 
some strides in that mission against AQAP, but it remains a 
very serious threat. I think most of our CT personnel agree on 
that.
    Mr. McCaul. So I would to my colleagues, I would say as we 
debate this resolution that we have no involvement. We have no 
active engagement of hostilities in Yemen from a military 
standpoint. Our only presence in Yemen is a counterterrorism 
presence against AQAP al-Qaida under a 2001 authorized use of 
military force that was authorized after 9/11 to go after al-
Qaida.
    And we have a humanitarian assistance presence. There is no 
presence in Yemen to actively engage in hostilities against the 
Houthis. Would you agree with that, Mr. Singh?
    Mr. Singh. I would agree with it. I think the types of 
assistance we are giving to the Saudi-led coalition, whether it 
is intelligence sharing, midair refueling, which obviously we 
are not doing anymore, to me these would not constitute 
engaging in the hostilities. And if we were to consider then 
that, it would set, a pretty difficult precedent for our 
actions around the world.
    Mr. McCaul. Thank you, sir.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Engel. Thank you.
    Mr. Sherman.
    I am going to ask him to take the chair for a few minutes.
    Mr. Sherman [presiding]. American national security starts 
with nonproliferation. The new crown prince MbS has said that 
he wants a nuclear program for Saudi Arabia and has hinted that 
the reason is so that he can have the same or better nuclear 
capacity than Iran when it comes to weapons. The least 
expensive way to generate electricity most of the time is to 
burn natural gas when the natural gas is very cheap. There is a 
lot of natural gas on the Arabian Peninsula where it is 
inexpensive or you can go through the highly expensive cost of 
liquefying it and exporting it.
    So the question here is, is the Saudi nuclear program being 
created because it is some efficient way to generate 
electricity or is it being created for the purpose of giving 
Saudi Arabia an opportunity to learn the nuclear technology and 
develop the systems necessary so that they could choose to move 
forward with a nuclear weapon?
    Does anybody have a response? Mr. Sullivan?
    Mr. Sullivan. Congressman, it is a matter of U.S. national 
security that we work against nuclear proliferation across the 
Middle East starting with blocking Iran's attempts to seek a 
nuclear weapon. But very much focused on working with our 
partners in the Gulf to choose alternatives to trying to 
develop an indigenous enrichment capacity, we have signed a 123 
agreement with the UAE, for example, in which the supply of 
nuclear technology comes from the outside so there is no 
proliferation risk.
    Mr. Sherman. Thank you.
    Mr. Sullivan. Yes.
    Mr. Sherman. I would point out that Saudi Arabia is 
resisting signing the same kind of protection and limitation 
agreement that UAE signed and that the only reason for them not 
to agree to standards designed to prevent them from having a 
nuclear weapon is because they want the capacity to have a 
nuclear weapon.
    We may differ on what our policy should be in Yemen, but at 
a minimum I do not see how we can cooperate with Saudi Arabia 
on Yemen or many other things until they agree not to develop 
nuclear weapons and that any nuclear program they have would be 
subject to the same gold standard that Mr. Sullivan provides. 
The Washington Post cited satellite imagery indicating that 
Saudi Arabia has secretly built a ballistic missile production 
factory.
    Do any of you have any information as to which country is 
helping them build that factory? I am not sure any of you 
would. I will move on to the next question.
    Yemen poses a great moral quandary for us because terrible 
things are going to happen next year and the year after and 
this year in Yemen. And the question morally for us is, are we 
morally pure if we can at least say we are not involved?
    Saudi Arabia has air power. Whoever uses air power is 
subject to a lot of attacks in the press because when it goes 
wrong it is obvious and it is big. The Houthis have small arms. 
What they do may be just as deadly, their use of child 
soldiers, their stealing of aid payments and food has been well 
documented. But the Saudis use bombing and they are 
occasionally, perhaps more than occasionally, going to hit 
civilian targets.
    So I think we are in a--but if we do not help them they are 
still going to bomb them, they just may be more inaccurate. So 
which is the more morally pure position for the United States? 
To help Saudi Arabia with its bombing program knowing that even 
with our help they are going to hit two school buses this year, 
or to wash our hands of the program knowing that they are going 
to keep bombing and then without our help they are going to hit 
four school buses this year?
    So the question for the panel is, would cutting off 
targeting assistance, and that is the focus of the question, 
targeting assistance, to Saudi Arabia cause them to reduce 
their bombing or would they simply reduce the accuracy of the 
same number of sorties?
    Mr. Harden.
    Mr. Harden. So I mean, I think the United States needs to 
remain engaged in Yemen and it is hard to disaggregate between 
the military component of it and the humanitarian----
    Mr. Sherman. I am just focusing on----
    Mr. Harden. No, I understand.
    Mr. Sherman. I have very limited time.
    Mr. Harden. Right. So if we are not involved we are not 
going to have influence and we are not going to be able to 
affect the outcome in a way that would be constructive for the 
Yemeni people.
    Mr. Sherman. Does anybody have a very quick answer? Would 
the Saudis reduce their bombing or just reduce the accuracy?
    Ms. Karlin. Where is the evidence that the U.S. support for 
targeting assistance over the last few years has meaningfully 
helped the situation?
    Mr. Sherman. Well, we cannot count the buses that have not 
been hit and we do not know. We simply do not know, but my time 
has expired and I will move on to the next witness, next 
member.
    Mr. Wilson. Thank you, Mr. Chairman, and I thank all the 
witnesses for being here today.
    In December I visited Joint Base Anacostia-Bolling where at 
a hangar--and I hope my colleagues go by and visit--it is to me 
a shocking display of weapons that were seized in Yemen which 
clearly have been provided by Iran. They make it very simple. 
Some of the materiel, some of the weapons are in English, 
``Made in Iran,'' but really said, one of the centerpieces is 
debris from a short-range missile fired by the Houthis in Yemen 
at a civilian airport in Saudi Arabia.
    So this is not just the conflict within the country, but it 
is a direct threat and with the missile capability that is 
being provided by Iran, it is a direct threat to the whole 
region. And I indeed hope our colleagues go by and see this.
    With that in mind, Mr. Singh, how would you describe Iran's 
relationship with the Houthis? What kind of financial training 
and arms procurement support does Iran provide?
    Mr. Singh. Thank you, Congressman.
    I think that from what I have seen, and I am not privy to 
all the information on this, basically the Iranians are 
providing the Houthis with the types of weapons that you are 
describing, quite recklessly, I agree. And they are also 
providing them perhaps with some training to go along with 
these weapons. They are also providing them with oil which 
constitutes financial assistance, more or less. The Houthis 
then tax that oil when distributing it.
    Again I think that the Houthis are not exactly an Iranian 
proxy. I do not think the Iranians can tell the Houthis what to 
do if we ask them go tell them to stop. I think for the 
Iranians this is really about destabilizing Saudi Arabia's 
border and not about anything aimed at resolving the conflict.
    Mr. Wilson. And I want to point out too that it was really 
clear of the advanced drone technology of all things that has 
been provided to the Houthis which could have far-reaching 
consequences.
    Mr. Harden, last month Secretary of State Mike Pompeo held 
the second Strategic Dialogue in Doha, Qatar which reaffirmed 
our partnership with Qatar. The U.S. and Qatar affirmed support 
for a strong and unified Gulf Cooperation Council. Sadly, we 
have a circumstance of the ongoing dispute between Qatar and 
its neighbors which impacts America's security interests. What 
can be done to address this?
    Mr. Harden. Sorry. I am not, frankly, the best person to 
answer how we resolve the Qatar GCC rift. It is extraordinarily 
complicated and I am not sure there is an easy path forward. I 
am also not sure how much leverage we actually have to make 
that happen, but I would defer to others.
    Mr. Wilson. And then, in fact, I was going to refer to Mr. 
Singh. Do you have any suggestions on how the United States can 
help resolve the conflict between Qatar and its neighbors who 
we all need to be working with?
    Mr. Singh. Well, it is a longstanding rift, Congressman, 
and I think that, frankly, our tools are pretty limited to 
solve it. We have been trying, I think, to support the Kuwaiti 
mediation. I think we should continue to do that but I think 
that there is not much we can do directly to solve the problem.
    I think, frankly, we can continue to work with both sides 
and we should continue to work with both sides and cultivate 
good relationships on both sides, frankly, for better or worse. 
In this region as well as some other regions we have 
experienced working with allies who do not work well together.
    Mr. Wilson. And I appreciate you pointing that out about 
Kuwait being involved. This is so important to our country with 
Al Udeid Air Base located in Qatar, the significance of our 
working with them, the potential for economic investments in 
our country. But again I am just so hopeful that Kuwait can 
make a difference. I yield back.
    Mr. Sherman. The gentleman from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    As I listen to your comments, obviously a political 
solution is better than anything else. But how do you get a 
political solution when instability is promoted by the Iranians 
and they use it as a weapon for their security? So how do you 
get some sort of a political solution? I mean the Iranians they 
want instability, they do not want a political solution. And if 
you do not have Iranians at the table, I do not think there is 
a possibility of a political solution.
    And I am not saying a military solution is the way to go, 
but you know, I think that after the Iranian deal that we 
withdrew from I was just wondering are they getting more 
aggressive, the Iranians? So.
    Mr. Harden. Just in terms of political negotiations and 
solutions, this is a multidimensional, multi-actor war. By my 
count there is at least five overlapping, interlocking wars and 
so a political accommodation would have to resolve all of that. 
To the extent that the Yemeni people, themselves, can take the 
lead in resolving that, that would be the most useful.
    Civil wars that are externally funded and financed do not 
extinguish themselves easily at all. The evidence is very clear 
about that. So I am not hopeful that we can get to a political 
accommodation any time reasonably soon. Even if Martin 
Griffiths was able to reach an accommodation that is only one 
element of it. That is the Saudi-led coalition against the 
Houthis for all intents and purposes. There is four other wars 
that are going on. That is not a part of the negotiation.
    Just in terms of the Iranian-Houthi element about this, I 
would just like to kind of reemphasize one point that Michael 
Singh made and that is it costs the Iranians almost nothing to 
destabilize Saudi Arabia. It is a very easy way to continue to 
poke them and to unsettle them. And I did say in my statement 
for the record there was 216 Iranian ballistic missiles that 
have been fired into the Saudi space. And in addition, the 
Houthis have at times controlled actual territory in Saudi. So 
this is an extraordinarily complicated conflict.
    Mr. Sullivan. Just a couple points to add to underscore 
what Mr. Harden was saying before. In some ways actually 
getting to a political accommodation between the Saudis and the 
Houthis is easier on the list of difficult conflicts than some 
of the other ones that are happening. Now the Iranian element 
here remains a very problematic one, but in a way choosing a 
strategy vis-a-vis Iran where it is you have to fulfill 17 
conditions before we will do anything with you makes it very 
difficult to try to do anything with respect to Yemen. Because 
we have not essentially adopted an approach that tells the 
Iranians that there is kind of no, there is no carrot and stick 
related to their activities in Yemen, whatsoever, it is all 
connected to a whole series of other broader issues.
    And I think that that strategy is unrealistic and until we 
hear from the administration how they intend to size and shape 
their strategy vis-a-vis Iran to deal with the specific 
conflicts, including the conflict in Yemen, we are not going to 
make a lot of progress. But the one thing that we can do 
practically in the near term is work with our partners on 
disrupting and interdicting Iranian shipments both by land and 
by sea to the Houthis. And I think the United States should, 
and there should be bipartisan support in Congress to press the 
administration to develop a strategy to do that.
    Mr. Sires. Mr. Singh.
    Ms. Karlin. We should also recall that Iranian support to 
Hezbollah is meaningfully more substantial and more problematic 
for U.S. national security interests and U.S. interests in the 
region than its support to the Houthi.
    Mr. Sires. Well, that is precisely what I am saying. You 
know, you have Yemen. You have Lebanon. You have Syria. They 
are all playing the instability game there, so how do you come 
to a solution for this?
    Mr. Singh. So--I am sorry.
    Ms. Karlin. Let me just quickly add. Yes, they are and it 
is pretty easy for them to do so and it is pretty cheap 
particularly in the case of the Houthis. You know, the 
relationship with Hezbollah is decades and decades long has 
only deepened in the last few years. You now have a situation 
where effectively Hezbollah is taking a number of steps not in 
its interests domestically, but because the Iranians have made 
them do so. That is not the case with the Houthis. There is a 
differentiation between them.
    Mr. Sires. Mr. Singh.
    Mr. Singh. I think that we do want to see a political 
resolution to this conflict. I think our allies want to see a 
political resolution to this conflict. Iran does not, want to 
see a political resolution to this conflict. The longer it goes 
on, the better it is I think for Iran and the more the chance 
Iran has to deepen its influence there.
    By the way, I will also add that I think for Iran it would 
be a major strategic victory if their actions in this conflict 
led us to asunder our relationship with our traditional allies 
of 70-plus years in the region and so we need to be very 
careful about doing so. I think that in Yemen obviously trying 
to drive the conflict to a resolution, a political resolution 
which the Houthis have resisted is important.
    I think across the region denying Iran new opportunities to 
meddle is very important as well and I think you do that really 
in two big ways. One is by strengthening our allies and the 
other is by ensuring that----
    Mr. Sires. My time is up. I do not want to keep taking 
other people's time.
    Mr. Singh. Just to finish this thought very briefly, to 
ensure that these marginalized populations around the region 
really are embraced by their governments and not marginalized.
    Mr. Sires. Thank you.
    Mr. Sherman. Thank you.
    Mr. Perry, the chart prepared by the committee identifies 
you as a member from California and I know that is an honor to 
which you aspire, but in the meantime you are recognized for 5 
minutes.
    Mr. Perry. Thank you, Mr. Chairman. I thank the panel.
    Mr. Sullivan, can you tell us what they behead people in 
Saudi Arabia for? What kind of alleged crimes or accusations 
are people beheaded for in Saudi Arabia, if you know?
    Mr. Sullivan. I am not an expert on Saudi criminal law, but 
they have had a history of beheading people for a range of 
crimes relating to crimes against the State, blasphemy, other 
things that are somehow an affront either to the Saudi kingdom 
or to the religion of the country.
    Mr. Perry. Sure, violating the First Amendment as we would 
see it in the United States. How about drugs, trafficking in 
drugs, narcotics?
    Mr. Sullivan. So I do not know if that is a beheading 
offense.
    Mr. Perry. OK. Well, I do know and it is. And do you know 
how many beheadings on an average they have in Saudi Arabia?
    Mr. Sullivan. I do not.
    Mr. Perry. OK, so The Guardian, not a bastion of 
conservatism, reported just last year that 12 per month. Now I 
suspect, I do not know but I suspect this has been going on for 
a long time, and we have had a long relationship with Saudi 
Arabia. I am curious about the newfound outrage--look, what 
happened to Khashoggi is horrific.
    But the point is, is this is the Saudi Arabian Government 
and they do this in their country on a regular basis, on a 
daily basis, almost. And I am concerned about it seems the 
feeling of the panel, at least some on the panel and some in 
our country that we need to now detach ourselves from our 
relationship, a longstanding relationship with Saudi Arabia 
over this issue alone and put the region and the relationship 
and the greater issue in peril. That concerns me and that 
confuses me and I find that intriguing that suddenly this is an 
issue after all this time.
    Now you have said that we should abandon the current policy 
and essentially what I think you said is do something more 
constructive regarding our posture vis-a-vis Iran. And I just 
heard what you talked about interdicting some of the shipments 
and so on and so forth, but it almost portends that we should 
stop what we are doing now, because what we are doing now is 
making it worse, and then and interdict and try more diplomacy.
    And it seems to me that if we stop what we are doing now 
Iran is not going to be like, well, listen, the Americans 
stopped so we are going to take our foot off the gas and we 
will take it easy on Yemen now. I do not think they are going 
to do that. It seems to me we should continue what we are doing 
and add the other components of what you talked about. Is that 
something that you could espouse?
    Mr. Sullivan. I strongly agree with you that Iran's 
reaction to the U.S. deciding to stop supporting the activities 
of the Saudi-led coalition is not going to lead them to stop 
fueling the conflict. They will not, which is why I am 
proposing a two-step process, one in which we stop supporting 
something which is deeply ineffective to American interests and 
is helping Iran; and then second, we also step up activities 
that would be far more effective in curbing Iran's capacity to 
aid the Houthi.
    Mr. Perry. So helping our ally, albeit flawed, our 
relationship is what it is. I am sure you are all familiar with 
the petrodollar arrangement with Saudi Arabia over a long time. 
They are an imperfect actor in this, but you are saying that 
stopping assisting and targeting, their targeting of their 
enemy and potentially and substantially our enemy supported by 
Iran, is going to help the situation?
    Mr. Sullivan. I believe that the current coalition 
operations, particularly as they relate to the conflict vis-a-
vis the Houthis, have been counterproductive to Saudi and 
Emirate interests and counterproductive to American interests 
and helpful to Iranian interests. They have----
    Mr. Perry. So the Saudis are working against their own 
direct interest right now.
    Mr. Sullivan. In this case, I do not think they are doing 
it on purpose. They are not waking up in the morning and saying 
we want to do that, but the net result of their military 
operation is to put them in a worse position strategically vis-
a-vis Iran. And the United States should be able to make a 
strategic assessment of that and say let's course-correct. 
Let's course-correct in terms of American policy and let's 
convince our partners that the best way forward here is not to 
continue the coalition operations as they have been carried out 
so far.
    Mr. Perry. So letting Iran have free rein and free range 
over Yemen?
    Mr. Sullivan. No, of course not. And that is why I am 
arguing for a strategy that says enough with the bombing 
campaign which has caused a significant number of human 
casualties, has disrupted the provision of humanitarian 
assistance, and has driven more people to the Houthi side while 
not dislodging the Houthis from Sanaa, by the way, and let's 
instead really focus on the threat which is the ballistic 
missile threat, the provision of materiel from Iran to the 
Houthis.
    Let's get focused like a laser beam on that and provide our 
partners with the tools and technologies they need to take that 
one. That will lead to greater Saudi and Emirate stability. 
That will undermine Iran's interests in the region. And I 
believe it will also contribute to----
    Mr. Perry. Seems to me--thank you, Mr. Sullivan. I do not 
want to cut you short but I am out of time here. It seems to me 
that applying more pressure as opposed to less on all fronts is 
a better strategy than relieving the pressure at one point and 
adding it to another and freeing them up completely on the 
battlefield.
    With that I yield back, Mr. Chairman.
    Mr. Sherman. The gentleman from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. You have all said, I 
believe, that it is important to enhance our diplomatic 
efforts, our political efforts in the region and not walk away 
from it. Let me give you an example of concern. It was brought 
up by Mr. Wilson when he was asking about Qatar. When the 
blockade was there, then Secretary Tillerson did begin 
diplomatic efforts. He contacted people in the region. He 
contacted our allies in Europe and asked for support and 
pressure to make a negotiated effort to resolve that.
    At the same time, with one of our allies, the President, 
when given that kind of opportunity to say we are with the 
U.S., we have talked with Secretary Tillerson on this issue, we 
will be with you on negotiations, the President responded, 
well, that was Tillerson's opinion, I am with the Saudis. Now 
how can the U.S. be effective in negotiating diplomatically 
when we are not speaking in one voice? How big of a problem is 
that?
    How damaging is that first as exerting our influence as a 
country itself, and second, trying to work with allies to try 
and enhance this diplomatic presence?
    Mr. Harden. So I worked most recently in the Yemen Affairs 
Unit which is our embassy-in-exile. Yemen and Saudi Arabia, it 
is not the first time that the administration or any 
administration speaks with mixed messages and conflicting----
    Mr. Keating. Yes. If I could interrupt, this was our 
Secretary of State and the President of the United States.
    Mr. Harden. Yes. No, but you are asking a very specific 
question and that is, what is it that we can do.
    And, frankly, we--this is an extraordinarily complicated 
war. The humanitarian crisis is the worst in the world. We do 
not actually have enough people on the ground at the Yemen 
Affairs Unit to even begin to do any of the analysis that is 
underlying this and to work through some of the challenges.
    I mean we cannot be a great power if we do not have people 
in place. I mean that is a simple, simple answer to your larger 
question, but it is also is necessary----
    Mr. Keating. What about the importance--my time is limited, 
sorry. What about our importance of our allies and trying to 
really bring them together as a coalition, particularly our 
European allies and particularly in light of the JCPOA with 
what is happening that could cause a great division with our 
European allies in that region?
    Ms. Karlin. Our allies and partners are our comparative 
global advantage. There is no other power in the entire world 
that can command so many relationships. When something goes 
wrong various countries look to Washington to help figure out 
what to do. That is good and I would rather it be us than 
Moscow or Beijing.
    Things we could do would be, say, having an ambassador in 
the UAE or in Saudi or in Qatar, having senior officials at the 
State Department who can focus on the Middle East. As Mr. 
Harden said, we do not have enough people. I would further that 
point. We do not have enough capable people with the right 
experience at the right level to actually allow the deft 
diplomacy, the carrots and sticks that we really need to exert 
in this complicated region.
    Mr. Keating. Does anyone else see the danger in not being 
able to fully utilize that advantage we have as working as a 
coalition when you hear these things and you see the reactions 
with the JCPOA in our European allies?
    Mr. Sullivan. You know, one of the things that really 
concern me about the U.S. approach to the JCPOA is that in 
pulling out we would put ourselves at odds with all of the rest 
of our partners in NATO, and the Europeans do not have as heavy 
either a diplomatic influence or a military presence in the 
Middle East, not by a long shot.
    But being able to speak with one voice with our European 
allies and partners particularly when it comes to applying 
pressure to Iran was a useful tool that we previously had that 
we have now put back on the shelf to a significant extent. And 
we are trying to coerce the Europeans, but they are dragging 
their feet and as a result our capacity to influence Iranian 
behavior, I believe, is less than it was when we had global 
unity around that issue.
    Mr. Keating. Well, thank you. Just a quick question back 
and forth, I know it is difficult but we talked about the 
actions of the Saudi crown prince. We have talked about what he 
has done to repress women who have spoken up, where he has 
imprisoned them, where he and there is reports of torture and 
sexual harassment even.
    Would you call the crown prince a reformer by any stretch 
of the imagination, yes or no?
    Mr. Singh. Look, Congressman, I agree with what you said 
and I think we need to raise the profile of these issues in the 
U.S.-Saudi relationship. That said, I think when it comes to 
economic reform and some of those other things, you see that a 
lot of Saudis, especially young Saudis, do want to see the 
types of reforms that the crown prince has talked about, so 
there is a bit of a contradiction there.
    And the question is can we support the pieces that we think 
would actually be good for Saudi Arabia like diversifying its 
economy and allowing expanding women's rights and reducing 
especially Saudi support for extremism while trying to 
influence Saudi behavior on those other areas where, frankly, 
their policies are way out of whack with what we would like to 
see them be.
    Mr. Keating. Thank you. My time is up, but I do agree with 
your points that it should not just be a binary relationship, 
all or nothing. I yield back.
    Chairman Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and congratulations on 
your first hearing. For the panel, thank you for being here.
    I do not need to give anybody a history lesson, you guys 
know it. But if I look back with our involvement in Afghanistan 
and Iraq, 17 going on 18 years, the trillions of dollars, loss 
of life, I look at Russia when they fought in Afghanistan, I 
see what is going on in Syria, probably one of the worst, if 
not the worst civil war in our history with multiple competing 
factions, and then you look at Yemen with what is going on in 
there and then we go back in biblical times, it has really been 
conflict after conflict after conflict.
    I look at the Carter Doctrine that President Carter came up 
with to deal with energy, to deal with stability, and keeping 
the shipping lanes open there, and we talk about the 
humanitarian crisis in Yemen which is terrible, and we talk 
about this conflict and that there is not a military solution 
to this, that we need to look to diplomacy.
    Is there a functioning government in Yemen, for the panel?
    Is that a consensus--no, no, no, no, four noe's?
    All right. If there is not a functioning government in 
Yemen can you have a political solution to this? Anybody? Mr. 
Singh?
    Mr. Singh. Well, look. I think----
    Mr. Yoho. Mr. Harden, you can come next then.
    Mr. Singh. We maybe will say the same thing, I am not sure. 
But I think the ideal outcome to this from our point of view 
and, frankly, from our allies point of view would be some kind 
of power sharing arrangement between the different factions. As 
my colleagues mentioned there is multiple conflicts going on.
    Mr. Yoho. There is.
    Mr. Singh. But in Yemen that has typically been how these 
types of conflicts end. It is through some kind of political 
compromise and power sharing arrangement.
    Mr. Yoho. All right, real quickly, Mr. Harden.
    Mr. Harden. So in general the Hadi government does not 
exercise much control, credibility, or legitimacy. There are 
pockets within the government that do and I would look to the 
central bank Governor as a good example, which by the way is a 
crucial, crucial point. And as Mr. Singh had mentioned, the 
Yemenis have typically resolved their conflicts themselves. In 
this context, however, with all the external actors that are 
involved we should brace ourselves for a war that is going to 
go on longer than any of us can bear.
    Mr. Yoho. It is. And it is something we just see over and 
over again. I mean we look at what we did in Syria we supplied 
weapons to the Syrian free rebel fighters that wound up in the 
hands of the bad players. We are seeing it play out here as the 
chairman brought up with the CNN report. There has to be a 
better way.
    And then we talk about the U.N. has to get in there and put 
some influence on there. Can the U.N. even be effective in that 
area on a humanitarian crisis if you do not have a political 
solution to this, and if you do not have a functioning 
government you cannot have a political solution. And it just 
seems like a catch-22 you just go around and around.
    It does not mean we do not try. But there has to be 
something that we can do outside of the box that we have not 
done that--I mean you guys are smart people, ma'am, all of you. 
You are all smart. We should be able to bring resources 
together in a different way that we have not done in the past. 
Any suggestions other than well, we have to do the humanitarian 
and have a political solution?
    Mr. Harden. I mean the humanitarian is extraordinarily 
expensive. It saves lives.
    Mr. Yoho. Oh, it is.
    Mr. Harden. But it is also insanely expensive.
    Mr. Yoho. And it will never end unless we get a solution, 
so we are just treating the symptom.
    Mr. Harden. But I also just want to hammer home this point. 
We do not have enough people that are involved on this----
    Mr. Yoho. Enough people where?
    Mr. Harden. We do not have enough American Foreign Service 
officers in who are tracking Yemen in the Middle East. USAID 
has three people. The largest humanitarian crisis on the face 
of the earth, in the region, I am not counting all the people 
that are back----
    Mr. Yoho. All right. So is that an agreement with everybody 
that more U.N. people there, USAID----
    Mr. Harden. No, U.S. U.S. I am talking about U.S.
    Mr. Yoho. Right. I am sorry, U.S. boots on the ground.
    Mr. Singh. I mean, I am going to disappoint you on this, 
Congressman, because I think there is no out-of-the-box 
solution to this. I think actually supporting the U.N.-led 
mediation effort as much as we can is probably our best bet 
right now. Martin Griffiths, the U.N. Envoy, I think, has made 
more progress recently than has been made in the past. I think 
there is hope.
    Mr. Yoho. Is he dealing with all factions that are fighting 
there or just the main one?
    Mr. Singh. Well, he is dealing, I think, specifically with 
this conflict between the Houthis and the Saudi-led coalition, 
which is important to do. It is not the only conflict in Yemen. 
I think we need to support that and then bring our unique 
capabilities to bear on some of the other problems we have 
talked about, for example interdicting the flow of arms to the 
Houthis not just by sea but also by land through Amman and so 
forth.
    Mr. Yoho. Well, and we know it is coming from Russia, 
China, Iran, North Korea, and there is a lot of bad players in 
there. I am out of time. It is just a frustrating thing again 
and a repeat of kind of a Groundhog Day. And it is too bad for 
the people of Yemen. Thank you.
    Chairman Engel. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I am going to followup on two questions. First off, our 
colleague Mr. Wilson raises a question of how do we solve this 
blockade and this challenge between the Saudis, UAE, Qatar, but 
more importantly something that Mr. Keating touched on. And 
this may be a little bit in the weeds, but I think we have some 
concern and I think this is bipartisan on both sides of the 
aisle, the decisionmaking process within the administration.
    I will use a very recent example, the decisionmaking 
process to withdraw from Syria, I think, is a very big concern 
here. I was in the Middle East in December and we had a chance 
to have dinner with our Special Envoy Brett McGurk and have a 
conversation with him. There was no indication while we were 
making progress in the battle against ISIS, there was no 
indication that this was near done.
    We met with our military commanders outside of Doha and 
again their mission was progressing in a positive direction, 
but again no indication that we were nearing the end here. You 
know, take that to what General Votel said yesterday that he 
was not consulted and had no idea that this was coming.
    So the following week after we get back from the Middle 
East talking to folks, a tweet goes out and says mission's 
complete and we are--and I have no idea how that decision was 
made. Best I can tell is the President had a conversation with 
Erdogan in Turkey and made some decisions. And I think that is 
real concerning to this body and should be concerning to all of 
us in Congress that there is not that consultative process.
    And we do not have to guess if Mr. McGurk was consulted 
because he wrote a Washington Post op-ed that said he was not 
consulted. This is our Special Envoy who is there who is our 
most knowledgeable person who--and that is of deep concern. If 
we take that to the blockade I have real concern about how the 
decision and what message we are sending to the Saudis.
    If you look at the President's relationship and Mr. 
Kushner's relationship with the crown prince he had a meeting 
here with the crown prince in March 2017. In May 2017, the 
President and Mr. Kushner visited Saudi Arabia. The next thing 
you know in June, early June, the Saudi blockade to Qatar 
started.
    Now how can we address these issues if we do not actually 
know what the administration's strategy, if we do not know what 
is leading to this? And the best I can tell we are told that 
National Security Advisor John Bolton has stopped the 
interagency decisionmaking process, and again as a body that 
has oversight responsibilities, here, I think we are very 
concerned about this.
    You know, Dr. Karlin, maybe I will start with you. Do you 
have any idea what the decisionmaking process within the 
administration is?
    Ms. Karlin. Everything I have heard echoes your profound 
concerns. These are hard issues. There is no easy answer. The 
last thing one would want to do is not actually try to 
deliberately think through them. And I think that is not only 
unhelpful for our policy, but it plays a really problematic 
signaling role to our allies, partners, frenemies and 
adversaries.
    You know, part of the reason those troops in Syria are 
helpful is operational, part of it is signaling. If there is 
uncertainty as to what is going to happen just based on what 
happens in a tweet, it is really, really unhelpful.
    Mr. Bera. Mr. Sullivan.
    Mr. Sullivan. I think there are--every administration, and 
I think Mr. Harden made this point, struggles with coordination 
in speaking with one voice. But I believe the current 
administration has elevated this to a kind of art form, a 
disturbing art form. It is not in the same league as previous 
administrations in terms of any kind of credible, consistent 
policy process that produces results based on the evidence, the 
facts, and consultation with the military and civilian experts.
    There are four basic consequences of this. The first is 
that it confuses and demoralizes our allies who do not know 
that they can count on us, the second is that it leaves our 
troops in a bad spot. They are out there twisting in the wind 
while the President is on again and off again when it comes to, 
say, leaving Syria.
    The third is that it emboldens our enemies. And finally it 
undermines the credibility of the commander-in-chief himself, 
but also anyone else who goes out to purportedly speak on 
behalf of the United States because no one can trust the word 
of an American official. And that has the net result, I think, 
of deeply undermining America's national security interests.
    Mr. Bera. Mr. Singh.
    Mr. Singh. I tend to agree that American unpredictability 
is certainly not a stabilizing factor here. I think our allies 
in this region and other regions are concerned about American 
unpredictability and it leads them into all sorts of hedging 
behaviors which tend to be bad for us.
    I think that it is the President's right to make a decision 
and every administration has a different decisionmaking process 
and that balance between deliberating and sort of boldness is a 
different balance struck by every administration. But it is 
very important I think that when a decision is reached we be 
very careful and sort of consider it in the way that we carry 
out those decisions. And that is what I would personally like 
to see more of.
    Mr. Bera. Thank you. I will yield back.
    Chairman Engel. Thank you.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you all 
for being here today. I know we are going to get more into the 
discussion of the details of the Saudi War Powers Resolution 
but I want to address some of that here.
    One of my biggest pet peeves in foreign policy is when 
people allow whoever is President to change their foreign 
policy view because maybe they either just want to support this 
person or oppose this person, and by the way my side did some 
of that as well in 2013. When there was an attempt to bomb 
Syria for its use of chemical weapons, I had Members of 
Congress come up to me and say that they think we should do it 
but they are worried that they do not want to give President 
Obama the authority to do that. That was a huge pet peeve of 
mine.
    What else is a huge pet peeve of mine is this newfound kind 
of religion on the situation in Yemen and the situation in 
Saudi Arabia that has been found by my colleagues on the other 
side of the aisle. I would like to make the point that it seems 
in this Yemen debate and Yemen policy it always comes back to 
somehow it is the United States' and Saudi Arabia's fault for a 
humanitarian crisis, even though there is sometimes a caveat 
which says, as Mr. Sullivan did in his testimony, ``to be 
clear, the coalition does not bear all of the responsibility 
for the violence and suffering in Yemen.''
    Well, that is true. Because as something that I think is 
not discussed very often is that the Houthis overthrew a 
legitimate government. The Houthis used food as weapons to 
starve innocent civilians. And as terrible as every bomb that 
misses its target or it hits an intentional target of innocent 
civilians from the Saudis is, I can point to incidences where 
the Houthis and backed by the Iranians used weapons to kill 
innocent people and to block innocent children from having food 
to put into their mouths to live by.
    We look at the Houthis that placed war materials among 
civilians so that the Saudis bomb it. This is not a new tactic 
to us. We have seen it from the beginning of war in the Middle 
East. Civilians are actually to be used in the information side 
of war so that hopefully the Saudis in the thinking of the 
Houthis bomb this facility or something we have, kill 
civilians, and then we can go to the international media and 
try to turn them against the Saudis. Our assistance for the 
Saudis by the way started under a prior administration and it 
is only recently that it has become an issue to use as an 
attack against President Trump.
    While I appreciate having this hearing, Mr. Chairman, and I 
really do, and I think this is the beginning of the discussion 
that Congress should have on this issue, in about 2 hours we 
are going to vote to try to take away the President's ability 
to be commander-in-chief. We are going to vote probably out of 
this committee to take away the President's ability to use 
counterterrorism strategies in the Arabian Peninsula to destroy 
the enemies of the United States of America.
    Most of the members of this committee are new. Most of the 
members of this committee have never sat through a classified 
briefing about what is really going on in Yemen. We had that 
last year. And even though some complained that it was not deep 
enough, I agree. Let's do another one with this whole committee 
before we go voting on policies that have to do with life and 
death.
    When we take, if we take our material support away from 
Saudi Arabia, it is not like Saudi Arabia is going to quit 
executing the war. But what they will quit doing is living to 
some extent by the law of armed conflict that we demand they 
do. They will to some extent quit living by, when we enforce on 
them and show them the legitimate targets in Yemen and now they 
will see more illegitimate targets, potentially, of targets 
because they do not have the resources that the United States 
has.
    So while I understand and am concerned and am compassionate 
about the humanitarian concerns in Yemen, the reality is if we 
act politically on this committee which I think we are poised 
to do because we can all go out on TV and say that we are 
opposing the Trump administration, because we can all go out on 
TV and say that we are fighting for humanitarian rights which 
we all want to do, but the impact of that will be far beyond, I 
think, what we are even debating now.
    So I hope that when we do that and I am going to talk more 
about it then that we actually think about maybe having a 
classified briefing. Bring Republicans and Democrats in and 
talking about what is really at stake.
    Mr. Singh, just with the 40 seconds I have left, what 
happens if the United States pulls all material support for 
Saudi Arabia and the coalition, is it going to save lives or do 
you think it might potentially cost more lives?
    Mr. Singh. Well, I would say two things, Congressman. One 
is the war will go on. I think that it will not cause the 
conflict in Yemen to end, the suffering there will continue and 
I do worry that we then lose our leverage and influence with 
those allies.
    But second, I also worry, frankly, about the wider effect 
again of considering these types of activities, intelligence 
sharing, midair refueling under acquisition and cross-servicing 
agreements, to be engaging in hostilities. I mean what does 
that mean for the routine types of cooperation we do with 
allies around the world? So I think it goes even beyond Yemen.
    Mr. Bera [presiding]. Ms. Wild from Pennsylvania.
    Ms. Wild. Thank you.
    I want to switch gears and ask all of you this, but I am 
specifically directing my questions to Dr. Karlin. The Saudi-
led coalition is reportedly recruiting and deploying children 
to fight in the Yemen campaign, as I understand it, including a 
large number of children from Sudan. And some reports suggest 
20 percent of the units are made up of children while others 
report 40 percent. Some of these children have been reported as 
wearing U.S.-produced uniforms and carrying U.S. weapons. Under 
the Child Soldiers Prevention Act of 2008, the U.S. is 
prohibited from providing several types of military assistance 
to governments known to use child soldiers.
    My question to you is this, and as I said it is to any of 
you who can offer information on this. What oversight is 
available to determine Saudi compliance with the Child Soldiers 
Prevention Act and are we employing those oversight efforts? 
And what further what should Congress be asking of the 
administration to ensure that the coalition is complying with 
this?
    Ms. Karlin. I think there are two questions in here. 
Question 1 is what effect is our support having? That has come 
up in a lot of the questions, right. Are we playing a more 
positive role or a more problematic role? The second question 
that I think you are walking to is are our partners actually 
following U.S. law, whether it is Leahy law, whether it is the 
Child Soldiers Prevention Act, and all of that should be 
reported by the Departments of State and Defense potentially in 
classified hearings, but that is incumbent on them to be able 
to say at a minimum whether or not our partners are actually 
following our laws. And, frankly, if they are not, then the 
first question is almost moot.
    Ms. Wild. Does anybody else have anything to add on that? 
OK. I want to switch gears then to Mr. Harden. I understand 
that you do not believe that humanitarian aid is the only path 
forward; in fact it is we need to open up lines of commerce and 
so forth.
    But I am deeply concerned that despite the huge amount of 
aid that has been directed to Yemen, despite the food and 
agricultural organization providing crops and vegetable seeds 
and fishing gear and poultry production kits and vaccinations 
and treatment for livestock, and despite UNICEF treating nearly 
230,000 children suffering from severe, acute malnutrition, 
this conflict still prevents significant obstacles to reaching 
the 12.5 million Yemenis that we have been unable to reach.
    So understanding that your position is that humanitarian 
aid is not really the direction we need to go in, I think that 
is your position, what concrete actions should be taken to 
ensure that we do have humanitarian access for the U.N. and 
international NGO's?
    Mr. Harden. Yes. So humanitarian aid is vital for the most 
vulnerable and we should not minimize it. My point is that of 
the total amount of basic commodities that go into Yemen, so 
food and medicine, 95 percent of it is imported through private 
sector channels. And so that really has to be the solution.
    This is not a drought famine so it is not that there is not 
enough food in the market. There is enough food in Yemen. It is 
a pricing and currency collapse issue. The splintering of the 
central bank in September 2016 was a unique event in civil 
wars. It does not happen in civil wars and this happened here. 
And what that caused is an immediate deleveraging of the 
economy that made basic commodities out of reach of households.
    And so stabilizing--and let me just add one other point. In 
my 25 years of engaging in civil wars and complex crises, I 
personally have not come across a situation like this with the 
central bank basically deleveraging into regional, subregional 
banks. And so that crisis is the primary driver for the 
inability of people to pay for food. There is a lot that the 
Saudis and others could do.
    And by the way, to the point, the Houthis could end the 
humanitarian crisis tomorrow. They are the only actor that 
actually has that capability. I think that that is important. 
All the other actors can impact it, but they are the ones that 
actually give up Hodeida port and allow food to flow in through 
all avenues. I think that the Saudis should open up their land 
border crossings in a much more robust way to allow food to 
come in and that all ports should be robustly engaged.
    And the last point I would just say is the Hadi government 
allows for a system of vast corruption that impedes the flow of 
basic commodities into the country.
    Ms. Wild. Thank you. I yield back.
    Mr. Bera. Mr. Mast from Florida.
    Mr. Mast. Thank you, Chairman.
    I just want to start by saying I have thoroughly enjoyed 
this debate on both sides and your comments. I think there has 
been a lot of insight been given here. And that being said, I 
just want to get a kind of overview of your perspective on the 
region to help me gauge some of the comments that were made, so 
I just have a couple of questions that I think will assist me 
in this.
    Just No. 1, when we look at this Middle East cold war that 
is going on throughout the region, I would love to know, do you 
consider it possible or likely that we see open war between 
Saudi Arabia and Iran, No. 1. Just we can go down the line. I 
do not care which side we start on here.
    Mr. Singh. I would say, Congressman, that I do think it is 
possible. I think as you see these, as I said, sort of bouts of 
regional interventionism, as you see the Iranians looking to 
take advantage of destabilized situations, I do not think we 
can rule out that that could then lead to more direct conflict 
between the powers involved.
    Mr. Sullivan. I think it is definitely possible. I would 
not today go so far as to say likely, but it could shift from 
possible to likely with a trigger just like that.
    Mr. Mast. Any further on a trigger that you might----
    Mr. Sullivan. Sure. I mean there is a few different things 
here. First, as Mr. Singh was saying before, the Iranians 
before the Joint Comprehensive Plan of Action after will always 
look for opportunities to escalate their destabilizing 
activities across the region. They could overreach someplace 
which would cause a reaction from the Saudis or for that matter 
from the United States itself.
    Second, the Saudis, particularly if they are continued to 
give a blank check, could increase their own regional 
adventurism vis-a-vis the Iranians. And so I think both of 
these could contribute to the, what is now certainly a 
possibility of conflict between them, but could move up the 
continuum to likely on the basis of each side feeling that they 
have the wind at their back to go against the other.
    Mr. Mast. Ma'am?
    Ms. Karlin. I agree with both Mr. Sullivan and Mr. Singh 
and have nothing to add.
    Mr. Mast. Sir?
    Mr. Harden. Then I think we will more likely see proxy 
battles than direct conflict, but I would not rule it out. The 
other element I would add is I see a realignment between the 
Israelis and the Sunni bloc that will deepen over the next 
years.
    Mr. Mast. I think that is a good lead into my next 
question. Give me a good outline of who you see as the should 
this occur the Saudi coalition versus the Iranian coalition, 
give us a broad perspective of that, whether you want to go 
down into militias specifically or just into countries.
    Mr. Harden. Let's start with Mr. Singh.
    Mr. Singh. Well, it is a tough question to answer in the 
hypothetical. You know, Iran tends in the region to work 
through proxies. They have an asymmetric strategy.
    So in Lebanon we see Hezbollah. In Syria they are importing 
not just Hezbollah from Lebanon but Pakistani and Afghan groups 
as well as Iraqi Shia militias. In Yemen they have provided 
support to the Houthis and so on and so forth.
    Whereas, we have seen the Saudis and Emirates operating 
what I would say is a more traditional way, using their own 
forces directly and the partnering with the likes of, say, the 
Hadi government and sort of allies on the ground there.
    Again it is hard to answer in the hypothetical. It would 
depend on where the conflict is is it an Israel-Iran conflict 
in the Golan Heights? Is it something something that is 
erupting in the Gulf? That would really determine sort of who 
the players are and how it shapes up.
    Mr. Harden. I would just add I am not entirely sure that 
the UAE or the Saudis have the power projection to really take 
a fight to Iran and would probably pursue a destabilizing proxy 
battle like the Iranians are doing in the Yemen, but somewhere 
on the Iranian border perhaps with the Kurds or others.
    Mr. Mast. Mr. Harden, you keep--go ahead.
    Ms. Karlin. Sir, I was just going to add and one big 
difference of course is the Iranians have had a whole lot of 
practice working with proxies. They are really good at it and 
have only gotten better in recent years. And I would not say 
that is the case, say, with the Saudis.
    Mr. Mast. I agree they have done a great job. I actually 
call it colonizing the region. That is what I, in my opinion, I 
see them out there doing.
    But again you keep leading me into exactly where I want to 
ask. You know, when we look at certainly what on the Iranian 
side could be considered a Shia coalition what kind of force do 
we surmise that they could produce in the region with that kind 
of Shia coalition?
    Mr. Sullivan. Well, beyond their direct capacities that 
they have built up and continue to buildup they have recently 
tested ballistic missiles further to attack potential State 
targets in Saudi and the UAE. Probably the most sophisticated, 
most well-armed militia that has some amount of command and 
control coming out of Tehran is Hezbollah which has tens of 
thousands of rockets and missiles pointed at Israel. And if I 
was to look at the single most proximate threat to a core U.S. 
national security interest in the region emanating from Iran, 
below Iran getting its hands on weapons of mass destruction and 
nuclear weapon, its ability to use Hezbollah to threaten the 
State of Israel is at the top of the list.
    Mr. Mast. My time is expired. Again I appreciate 
everybody's comments today.
    Mr. Castro [presiding]. Any other comments on that question 
can be submitted for the record. We will go now to Dean 
Phillips.
    Mr. Phillips. Thank you, Mr. Chairman and to all of our 
witnesses.
    Mr. Singh, in your opening testimony you refer to the next 
phase in Yemen, presumably from a conflict to diplomacy. I have 
heard conflicting perspectives outside of this room on whether 
that is already underway and even if it is achievable at all. I 
would welcome each of your perspectives starting with you, Mr. 
Singh, on if there is any evidence that that is already 
occurring and, if so, if you can expand on it.
    Mr. Singh. Well, I think it is certainly our hope and, 
frankly, I have heard from the coalition members directly that 
it is their hope that we have now moved into a political phase, 
as it were, of the conflict. And I think that that hope rests 
upon this current U.N.-led mediation succeeding. We have had 
the Stockholm Agreement which was a breakthrough in a sense. It 
hasn't been perfectly implemented. We have seen lots of Houthi 
violations. But I think the hope is that that will stick and if 
it sticks we can then build on it with confidence-building 
measures and other steps around Yemen that will start to de-
escalate the conflict.
    And of course the question that rises, I am sure, in 
everyone's mind is, well, what if it fails, what then happens? 
And I go into this in my written testimony. I think that if 
that happens we need to encourage our partners and work with 
them, frankly, to craft a strategy to address what we consider 
the most significant threats emanating from this country.
    So that would be as Mr. Sullivan was talking about, the 
Iranian arms going into Yemen and then the firing of missiles 
and rockets. It would be improving the access for humanitarian 
supplies. It would be trying to protect the maritime corridors 
there and so on and so forth. That would be, frankly, a 
difficult conversation with our partners, but I am not sure 
that we are in totally different places from our partners on 
those points.
    Mr. Phillips. Thank you.
    Others?
    Mr. Sullivan. I think the Stockholm Agreement that was 
reached in December that Special Envoy Griffiths is trying to 
carry forward is deeply fragile right now and could break down 
at any time. One of the key markers will be whether this 
prisoner exchange that is under negotiation as we speak 
actually goes through, and then whether or not the two 
conditions that Griffiths has identified as having to hold that 
there be no strikes within the cease-fire area and no offensive 
efforts to take territory continue.
    So and I agree with Mr. Singh that actually the coalition 
to a greater extent than the Houthis, in my view, wants to see 
this sustained. And I agree with Mr. Harden that the Houthis 
have more power to actually cause the provision of humanitarian 
assistance to get through Hodeida right now, and I think that 
working with the entire national community to bring as much 
pressure to bear on ensuring we do move into that next phase is 
the most important thing in the days and weeks ahead.
    Mr. Phillips. Thank you.
    Dr. Karlin.
    Ms. Karlin. It is hard to be sanguine about the situation 
in Yemen and how much better it could look a year or 2 years 
from now and no matter which phase it goes into. I might 
suggest where you really want to focus on is three opportunity 
costs. First, obviously the horrific humanitarian situation; 
second, the price we pay to try to contain what is coming out 
of it; and third, the distraction that it poses both for us and 
for our regional partners.
    Mr. Harden. I think that while I believe there is no 
military solution to this and most of us who follow this 
believe that, I think the combatants believe that there is a 
military solution. And so the Stockholm Agreement may hold and 
it may deepen, but if I were to bet I would say that the 
Stockholm Agreement fails and that we have a battle for Hodeida 
sometime in the next year.
    And I will just point out that the situation has only 
gotten worse in the past year. So the humanitarian appeal this 
time last year from UNOCHA was three billion dollars. In 
February, at the end of February it is going to be four billion 
dollars. So I agree it is hard to be sanguine.
    Mr. Phillips. All right, thank you all.
    Mr. Chairman, I yield the balance of my time.
    Mr. Castro. Thank you.
    Congressman Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you to the 
panel for being here.
    There has been a lot of focus on the CT threat coming out 
of the region specific to Yemen. Are you seeing any CI and/or 
cyber concerns coming out, No. 1, and No. 2, from our domestic 
intel community perspective, do you feel the U.S. intelligence 
community and all the agencies that are part thereof are 
sufficiently on top all the complications in that region? There 
is funding concerns. There is recruitment issues as well on our 
intel side which are assessment of how on top of the region and 
all the complications that exist therein.
    Mr. Harden. So I think that the chaos in Yemen, including 
the chaos in the southern portion of Yemen because primarily we 
have been talking about the north, gives space for terrorists 
and that space has probably deepened. I do not think that we 
can kill our way out of it and so I agree with the assessment 
that AQAP has a very large and sustained base in Yemen.
    In terms of cybersecurity threats I would be doubtful that 
would originate from Yemen.
    Mr. Sullivan. I would just add that just as it has created 
greater safe havens and, frankly, weapons and recruitment 
opportunities for AQAP, I do think it has some hindrance to our 
operational capability to develop the kind of on-the-ground 
efforts against AQAP. Not so much the direct operations that 
the UAE and others are working, but building the kind of 
strategy that we had before the conflict started to try to 
weaken AQAP's grip in some of those southern provinces.
    With respect to the broader question of resources, I do not 
know enough about where things lie in the intelligence 
community to answer. But I would say that I am very impressed 
with the intelligence community's general development of 
knowledge particularly about the counter terrorist threat 
coming out of Yemen over the past many years and the 
contributions they have made as our partners, the Saudis and 
Emirates have made to foil plots that the ranking member was 
referring to in his opening statement.
    Mr. Singh. So I would just add, I think we have together 
with the Emirates especially been able to enjoy some success 
against AQAP. There have been several high profile HVTs who 
have been taken down in Yemen in the last year or two.
    Your larger question about cyber, is a good one for this 
region because I think we have seen in this region as this kind 
of tripartite conflict or rivalry has developed that I talked 
about, seen cyber tools used in a sort of groundbreaking way by 
lots of parties in the region. And we have seen the Iranians as 
was detailed in the DNI's Worldwide Threat Assessment 
increasingly use those tools against the United States in 
particular.
    I think there is also a growing maritime and missile threat 
in the region and I think that that will grow in part because 
let's not forget that next year, 2020, the conventional arms 
ban on Iran will end under the JCPOA, the Iran nuclear accord.
    And so do we have enough resources devoted to this? I am 
not sure. I think that is a question that you should be asking 
the intelligence community and the administration in general. 
But I do worry that especially as we are sort of rebalancing 
toward Asia, toward the Russia challenge that it is possible 
that we could see a shortfall in resources devoted to these 
problems.
    Mr. Castro. Thank you.
    Colin Allred of Texas.
    Mr. Allred. Thank you, Mr. Chairman. And I would like to 
thank Chairman Engel for calling, this is our first hearing.
    I am deeply concerned with the results of our involvement 
in Yemen. I am also cognizant of our regional relationships 
there and their importance for us and our mission and our 
ongoing mission against AQAP there. I think that we are here 
today to discuss this region certainly, but also to talk about 
the role of Congress in our foreign policy.
    We have seen I think a number of steps by past congresses 
to cede some of that authority and I think that it is important 
that we exercise our constitutional duties to oversee what is 
going on and how U.S. involvement is playing out around the 
world. And so that is why I think it is so important that we 
are here today.
    And Dr. Karlin and Mr. Singh, you have both mentioned in 
your statements the trend in our foreign policy away from 
counter terrorism and toward greater powers in State actors, so 
want to talk about Iran as others have as well. As you note, 
Iran has provided support and training in ballistic missiles to 
the Houthi rebels despite the blockade that has been in place 
since 2015. And heavy weaponry such as long-range missiles have 
been used against targets inside Saudi Arabia and against our 
own ships.
    Dr. Karlin, how can the U.S. help its partners more 
effectively interdict these weapons from the shipments from 
Iran both at sea and via land?
    Ms. Karlin. Thank you. Part of what we can do is work with 
our partners together on knitting together cohesive ways both 
in the air and by sea to try to counter these weapons. So that 
involves things like maritime security exercises, looking at 
the sorts of assistance maybe through war gaming or tabletop 
exercises, showing our partners the sorts of capabilities that 
they need to be able to effectively counter these challenges.
    Mr. Allred. Thank you.
    And are there any additional sanctions or measures that 
could be taken by the Department of Treasury to contain Iran's 
ability to use front companies or individuals to traffic arms 
to the Houthi rebels and where are the pressure points that we 
can assert that pressure with the Houthis? To Mr. Singh.
    Mr. Singh. You know, I tend to think, going back to what 
Mr. Harden said about the fact that it is really the Houthis in 
control of that Hodeida port through which not just 
humanitarian assistance and food and so forth passes, but also 
presumably some weapons, we would like to see, I think, much 
more international pressure on the Houthis.
    So far there has been a lot of conversation about the 
Saudis and Emirates. A lot of those concerns are justified and 
valid, I think. But we have seen far less conversation about 
the role that the Houthis are playing both in sort of the 
importation of weapons and the suffering that is taking place. 
I would like to see more action on that front.
    I think we should be recruiting our allies elsewhere in the 
world, especially Europe, to join us in that as well as to join 
us in that interdiction mission. And I think I would like to 
see the focus of our conversations about Iran with those allies 
be that sort of issue rather than, say, the nuclear agreement 
and so on and so forth.
    Mr. Allred. Mr. Sullivan, you have spoken some about the 
steps we need to take to counter Iranian influence. Can you 
expand upon that and how we can use our Arab allies in the 
region to counter that?
    Mr. Sullivan. Sure. I mean one of my concerns which I 
express in my written testimony is that the current strategy 
seems to be to try to ratchet up pressure generally to no kind 
of clearly defined end. It seems like maybe the end is regime 
change and we will not stop until we are at that. And my view 
is that you buildup pressure against an adversary like Iran in 
an effort to convert that pressure into some progress on an 
issue that matters to us. We did that with the nuclear deal.
    I agree with Mr. Singh we have to look at a broader range 
of issues beyond the nuclear deal as well. But my biggest 
concern about what the administration is doing right now is 
that it seems to just be pressure for pressure's sake, not 
pressure to actually try to produce practical change on the 
ground in the region.
    So, for example, you asked the question about authorities. 
I do think that if we dedicated some resources at Treasury to 
specifically tracking the means by which these weapons are 
transferred and ultimately delivered, Mr. Singh mentioned that 
it is not just sea, it is by a land route as well, that we 
would be in the position to be able to put some curbs on that 
both through intelligence-led operations but also through the 
application of financial sanctions.
    My concern is that instead we are just taking a very broad-
based approach with the hope of kind of crashing the regime and 
I think that is, A, not in keeping with U.S. policy, but B, and 
more importantly, it is prohibiting us from focusing on trying 
to shape Iran's behavior on more targeted bases like their 
support for the Houthis.
    Mr. Allred. Thank you, Mr. Chairman, yield back.
    Chairman Engel. Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman.
    Panel, thank you for being here today. I too have enjoyed 
this discussion. I have heard the word ``chaos'' a lot today 
and I am going to use it again. My experience is no matter 
where you go in this world if there is chaos, when you peel 
back that curtain you are going to see influences from China 
and from Russia. Is that the case here and can you give me a 
sense of how much influence is being exerted by those two 
countries?
    Mr. Singh, let me maybe start with you and others that may 
want to comment on that.
    Mr. Singh. Are you asking, Congressman, specifically about 
Yemen or about the Gulf region in general?
    Mr. Curtis. My thought was specifically about Yemen, but I 
would be curious to know just the overall influence in the 
region.
    Mr. Singh. I think what we do see in the overall region is 
certainly an increased interest by Russia in becoming involved 
in the Middle East and in the Gulf region as well in an effort 
to sort of project their own influence and power to blunt 
American influence and to do other things like sort of promote 
their arms sales and so on and so forth. So they are competing 
with us, for example, for arms sales in places like Saudi 
Arabia and so forth.
    The Chinese to some extent are doing the same thing, 
competing that we have seen, for example, a significant 
increase in the export of armed drones by China to places like 
the UAE and Saudi Arabia. The Chinese, I think, are less active 
or at least less overtly active in the region than the Russians 
are, but I think we will see their involvement increase.
    They are involved right now in the development of an Omani 
port called Duqm which is sort of at a pivot point between the 
Indian Ocean and the Arabian Sea. They have established their 
first overseas military base in the Horn of Africa in Djibouti, 
where as I mentioned a lot of these States, the UAE, Turkey, 
and others are also very active and where of course the U.S. is 
very active.
    And so I think there is a worry that you do see especially 
Russia partnering with Iran, partnering with Iran's proxies. We 
see this clearly in Syria in a way which is destabilizing and 
potentially threatening to the United States. And I also worry 
about the potential for the development of more great power 
conflicts in the region especially as China steps up its 
activities.
    Mr. Curtis. You mentioned just a brief moment ago the need 
to call on our allies with the Houthi, to influence the 
Houthis, and when you said that it made me wonder who truly 
influences them and would that influence be greater by Russia 
and is that a possibility and, if so, should we be calling on 
Russia for help with humanitarian aid specifically in that 
venue?
    Mr. Singh. You know, I do not know that the Russians have 
direct influence on the Houthis. I do not get that perception. 
Where Russia comes into it, I think, is Russia obviously sits 
on the U.N. Security Council as a veto-wielding member of that 
Council and has the ability to, as they have done time and time 
again especially in recent years, protect Iran which is 
Russia's main partner in the region and by extension Iran's 
proxies.
    And so I think where you need the Russians is to allow sort 
of the U.N. Security Council to play a bigger role here, and 
maybe our Saudi allies or Emirate allies countries where Russia 
would like a role of like a relationship, the Israelis can play 
a role in putting pressure on Russia to do that.
    My point more broadly is I think that there has not been 
enough of that international pressure on the Houthis and I 
think that is especially important because I am not sure there 
is any single external power that can compel the Houthis to the 
table or sort of force a solution on them.
    Mr. Curtis. OK.
    Mr. Harden.
    Mr. Harden. I would agree. I mean there is not a lot of 
leverage points for the Houthis. Part of their power is the 
fact that they are so indigenous and so capable of operating 
within their own country. And again I just want to reemphasize 
one point. They are not proxies of Iran. They have common 
aligned interests and they use those interests to further their 
own benefit, but the only leverage points might possibly be the 
Omanis.
    Back to China and Russia in terms of the chaos in Yemen, I 
do not see it, to be quite frank, except for the race for the 
ports which would include some Yemeni ports and clearly both 
the UAE and China have great port desires. Hodeida is a great 
example.
    Ms. Karlin. I would just add that we have historic examples 
where active and serious U.S. diplomacy has pushed the Russians 
out of the Middle East and when you see a lack of it, 
unsurprisingly, it is an easy place for them to make problems.
    Mr. Curtis. Thank you. I yield my time.
    Chairman Engel. Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    And thanks to the panelists for your erudite and excellent 
discussion. I want to put you on notice that I am here 
representing my 13-year-old daughter Molly who was bat 
mitzvahed on December 15th and she wrote her Torah talk on the 
unimaginable suffering in Yemen and our complicity in it. So 
she will be watching.
    My first question is for Dr. Karlin. During the first year 
of the Saudi military campaign many of the indiscriminate 
attacks on Yemeni civilians, hospitals, markets, schools, were 
ascribed to Saudi pilots' inexperience, high altitude aerial 
bombardments and other forms of negligence. Over time, however, 
Saudi bombings of school buses, cholera treatment centers, and 
the use of double-tap strikes suggested that this was a more 
intentional strategy. Would you agree with that assessment?
    Ms. Karlin. Thank you. You know, the Saudis really do not 
have much of a history of using their military. For a very long 
time they spent lots and lots of money buying all sorts of 
sophisticated capabilities, so Yemen has been kind of their 
testing and their operational testing ground, for better or 
worse and largely it appears worse.
    I think the Obama Administration's view was if they are 
going to start to engage let's see how we can be helpful here, 
and that is why you saw the support that really started in 
2015. As I have said previously, I do not see much evidence 
that that support has been helpful and I am not sure whether it 
is deliberate or indeliberate. I do not think I am capable of 
making that call without access to classified information. 
However, it is worrisome that they do not appear to be getting 
a whole lot better.
    Mr. Levin. All right. Well, under those circumstances what 
should the U.S. do? Should we work to try to change the 
coalition's behavior or should we try to extricate ourselves 
entirely? That is another question for you, Doctor.
    Ms. Karlin. Of course. So I would suggest a mix of carrots 
and sticks. I would figure out what sort of capabilities we can 
help the Saudis acquire, so for example the Terminal High 
Altitude Aerial Defense System, the THAAD system, could help 
them feel more secure at home. And I think that that is a 
pretty decent carrot.
    But I would also work on sticks and show them that we are 
willing potentially with a national security waiver to have 
this body say that their efforts are extremely problematic and 
we do not want to support them anymore.
    Mr. Levin. Thank you.
    I would like to turn to human rights within Saudi Arabia 
and ask a question of Mr. Sullivan. Under MbS the Saudi 
Government has cracked down on dissidents and human rights 
activists. Reports indicate that authorities have arrested and 
even tortured activists. Is it fair to say that the U.S. has 
leverage to press Saudi leadership to respect human rights?
    Mr. Sullivan. You know, it is always a complicated 
question, our leverage to get other countries to conform to our 
values and our human rights standards. Oftentimes we 
overestimate the leverage we have, but a lot of times we turn a 
blind eye to bad behavior by close partners to our, the 
detriment of our interests and our values.
    And I think in the case of Saudi Arabia, and this was true 
under Democratic administrations as it has been under 
Republican administrations, I think we have too frequently been 
willing to say we have to make human rights concerns a fifth, 
sixth, or seventh tier priority rather than something on the 
plane with other more fundamental interests that we have, and I 
think that should change.
    Will we be able to get them to fully live up to our 
expectations, probably not. But can we do a better job than we 
have done, I believe we can.
    Mr. Levin. And how has the Trump administration been doing 
in using what leverage we do have?
    Mr. Sullivan. I think the Trump administration has actually 
sent a very clear message not only that they do not really care 
about the issue, but even more they are perfectly happy to have 
the Saudis crack down on folks within their own country. That 
is the Saudi's business as far as Donald Trump is concerned.
    Mr. Levin. Thank you. Let me ask you another question about 
the Trump administration. The government of Saudi Arabia has 
reportedly spent heavily at Trump hotels in Washington and 
Chicago and apparently financial relationships between the 
President and the Saudis go way back. In October, the Chicago 
Tribune reported that Trump's business relationships with the 
Saudi Government and rich Saudi business executives go back to 
at least the 1990's.
    In Trump's hard times the Saudi prince bought a super yacht 
and a hotel from him. The Saudi Government has paid him four 
and a half million dollars for an apartment near the United 
Nations. Is it possible that the President's conflicts of 
interest have impacted the administration's actions or lack 
thereof when it comes to Saudi Arabia?
    Mr. Sullivan. You know, it is amazing that this question 
can even be posed with such credible evidence behind it. That 
is where we have arrived and it is not just with Saudi Arabia 
that the potential that this President's personal interests are 
conflicting with the American national interest. That is 
certainly possible with Saudi Arabia. It is certainly possible 
with a number of other countries, and I do think that this 
committee and this Congress should take a hard look at that.
    Mr. Levin. Thank you. I yield back.
    Chairman Engel. Thank you.
    Mr. Pence.
    Mr. Pence. Chairman Engel and Ranking Member McCaul, I 
would like to start by saying how honored I am to serve 
alongside you and represent Hoosier values on the Foreign 
Affairs Committee. Thank you.
    To all the witnesses today, thank you for being here. Your 
time and your fascinating testimony educational; Mr. Singh, 
specifically, I found your testimony to be particularly 
interesting. Specifically, I am interested in your opinion on 
the most effective role of Congress with respect to the U.S. 
policy in the Arabian Peninsula.
    In your written statement you expressed your view that it 
would be a mistake to end our partnership with Saudi Arabia and 
the other Gulf States. You talked about that today as well. You 
continue by saying that this should not prevent us from having 
frank conversations with our partners when disagreements arise. 
Instead, you suggest, and I quote, the U.S. should concentrate 
its efforts in a number of areas. In that spirit you listed 
examples such as improving allied military effectiveness, 
improving coordination among partners, pressing for democratic 
and reform, and reinvigorating regional diplomacy.
    In your opinion, what do you think is the most effective 
role of Congress to help achieve our strategic objectives while 
also promoting and protecting our fundamental American values? 
Is there one of these areas that you identified that stands out 
where Congress should, as you say, concentrate its efforts?
    Mr. Singh. Well, sure, Congressman, and thank you for 
taking the time to read my testimony. I do think that when you 
are in government working on these issues you have a tendency 
to have a hard time looking beyond even the next week. You 
know, a situation like Yemen, a situation with Saudi Arabia, 
these are fast-moving situations in a region which is a very 
turbulent region.
    I think what Congress can really do in a way that is hard 
for the executive branch to do, besides of course its 
constitutional roles of oversight in providing that sort of 
that check, is take a longer range view. For example, look at 
the systemic risks of arms sales to the regions. You know, you 
are asked to approve or disapprove individual arms sales, but 
there is no reason you cannot step back and look at the whole 
and say is this adding to stability or is this detracting from 
stability. Is this advancing or setting back our interests?
    When it comes to human rights, which we were just talking 
about, again oftentimes I think that even if American officials 
care about human rights, want to press them, there tend to be 
four or five other issues which are this week's issues which 
get in the way. And so I think Congress again can play a very 
useful role in ensuring that human rights, and not just human 
rights but political reform, economic reform, remain on the 
agenda for U.S. policy.
    And I do think, frankly, as and I think that we are seeing 
this today in Yemen that congressional pressure can play a role 
in shaping the actions of our partners. And so we may have a 
very close partnership with Saudi Arabia, with Yemen, and when 
the CENTCOM commander goes and talks to them he may be talking 
to them about operational issues. But when a CODEL comes, when 
Congress speaks, I think oftentimes it can put some of that 
pressure on especially on those longer term issues in a way 
which is tougher for American officials to do.
    Mr. Pence. Thank you.
    Mr. Chairman, I yield my time.
    Chairman Engel. Thank you.
    Ms. Spanberger.
    Ms. Spanberger. Thank you very much to those presenting 
today. I appreciate your time.
    I wanted to start with a question for Mr. Singh. General 
Votel made comments yesterday talking about the fact that U.S. 
military engagement with Saudi Arabia and UAE allows us to has 
leverage and influence over their actions in Yemen. And in your 
comments today, you made a comment to the effect that we cannot 
expect, we should expect our partners to follow human rights 
norms, but we cannot tie it together with our engagement. I 
would ask if you could expound upon that ever so briefly about 
how it is that we can continue our engagement or could continue 
our engagement be it with Saudi Arabia, UAE, or any other 
country and separate that from the expectation that we have of 
how it is that they are engaging.
    Mr. Singh. Thank you, Congresswoman. And let me just start 
by saying thanks for your continued service to the country in 
your new role.
    I want to be very clear about what I mean when I write 
this. I think it is absolutely appropriate for us to tie arms 
sales, security assistance programs, training and so forth to 
the way that our partners are conducting themselves in war. You 
know, to the question that was asked earlier, if we do not 
believe that our partners are committed to following the laws 
of war and international norms of warfare we should not be 
partnering with them.
    It is very important for our military that we not be asking 
them to compromise themselves, their morals, their values by 
working with partners who are not committed to those values. 
What I am trying to point out though is when we talk about 
those larger issues of politics, of human rights, of social 
reform and so forth, I do not think it has been effective to 
try to tie those issues to security assistance, to use security 
assistance as sort of in a crude way as leverage over unrelated 
issues. I think that our track record and I have as a U.S. 
official and as an observer have been through so many of these 
cases, I think our track record in doing that is poor.
    Ms. Spanberger. OK. Thank you for that clarification.
    And then my other question and I will open this up to you, 
Mr. Sullivan. During your opening statement you made the 
distinction between offensive and defensive military support to 
Saudi Arabia. And I was wondering if you could expand upon that 
briefly, how can we ensure that weapons, intelligence, military 
capabilities that we are providing to Saudi Arabia are for 
defensive purposes not offensive purposes and where you might 
see some of that overlap and challenges in the way that we are 
looking at this question?
    Mr. Sullivan. It is an especially pertinent question in 
light of the recent reports that what we would historically 
have classified as a defensive system, like the TOW missile 
system, is being used offensively having fallen into the wrong 
hands, in the hands of extremist groups and others.
    So I concede that a clean distinction between offensive and 
defensive systems is not always easy to come by, but I do think 
there are some clear cases. And the two cases that I referred 
to in my testimony were, one, theater missile defense and 
missile defense systems more broadly. Dr. Karlin mentioned the 
possibility of THAAD. I think we could pretty well agree that 
that is a classically defensive system that cannot be used 
readily for offensive purposes. And then, second, that the 
United States itself would increase the conduct of maritime 
patrols where we control the extent to which we are engaged 
defensively as opposed to offensively.
    So those are the types of things that I have in mind, 
rather than the sorts of things which fall on that line and we 
may hope they would be used for defensive purposes but could 
easily be converted to offensive purposes.
    Ms. Spanberger. OK. And I have one last question that I 
would like your input on. As a former intelligence officer 
myself, I am sure you are aware that last week it was revealed 
that the UAE hired a team of former U.S. intelligence officials 
to help with their cybersecurity and electronic surveillance.
    What actions should the U.S. Government take, if any, in 
your estimation, to prevent former intelligence officers from 
using the tradecraft that they learn through their service to 
the United States on behalf of a foreign government or a 
private company in this way?
    Mr. Sullivan. Congresswoman, I read the same reports and 
was disturbed by them. There is not currently a legal framework 
for tradecraft. There is for obviously the provision of 
classified information but not for tradecraft, particularly the 
specialized tradecraft that intelligence officers, and you know 
this better than anyone, are getting in the United States that 
they can then go ply to other countries. I think that is pretty 
disturbing.
    But I also think that because it is an issue that I do not 
think has been much on the mind of policymakers or legislators 
of late it requires some real study. And so what I hope this 
committee and others will do is take up this question. Should 
there be additional legal restrictions on the training and 
craft that intelligence officers are getting for use elsewhere?
    I would just add that there are some reports that suggest 
this tradecraft was turned back on American citizens or 
American companies; I think that clearly is against the law. 
But even if it is being used just out there in the world not in 
relation to U.S. citizens I think we are going to need further 
legal parameters around it, but I would defer to a deeper dive 
into the issue and the tradeoffs and leave it at that.
    Ms. Spanberger. Thank you. I yield back.
    Chairman Engel. Thank you.
    Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman.
    My question is for Mr. Singh. Sir, what tools and 
strategies are the U.S. using to help our Gulf partners stop 
Iran's smuggling of weapons to the Houthis?
    Mr. Singh. So my understanding of what we are doing is 
something which is not limited to Yemen, right, because 
obviously we are concerned about the Iranian proliferation of 
weapons around this region and there is a toolkit that we can 
draw on to address it. It starts with intelligence. We have the 
best, I think, intelligence. Israel obviously has very good 
intelligence as well in terms of detecting the movement of 
weapons from Iran to the region.
    One of the reasons we are concerned, just as a footnote 
about Iran, say, establishing missile factories in, say, 
Lebanon or Syria is that that reduces kind of our visibility 
into the movement of these weapons and that is something we 
should be concerned about potentially in Yemen in the future 
not perhaps today as well. So there is the intelligence aspect.
    And then there is the partnering aspect with countries in 
the region, Oman, countries on the Horn of Africa and the 
Arabian Peninsula, to then act on that intelligence to ensure 
that weapons can, in fact, be interdicted when they are on 
their way. That is something which I would say happens more 
rarely. Oftentimes by setting up the right mechanisms you can 
deter the movement of weapons in the first place. You do not 
often get to that point of actual interdiction.
    I think there is a third element to it though and this 
element is much harder and that is cost imposition. You know, 
part of deterrence is not just erecting barriers to these 
actions, it is ensuring that there is a penalty to be paid when 
they do succeed. There, I think we have not been as successful 
because balancing the risk of escalation with the need to 
impose cost is something that every administration has 
struggled with. I am concerned though that we are kind of 
finding ourselves more on the risk-averse side of that too 
often these days.
    Mr. Watkins. Thank you.
    And, Mr. Chairman, I yield back.
    Chairman Engel. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you. Thank you, Mr. Chairman.
    Let me begin by saying that in the last administration I 
had the perhaps dubious honor of overseeing some of our effort 
to try to leverage our influence with Saudi Arabia to persuade 
them to, in effect, bomb better. And I can tell you from that 
experience that it was worth trying. We tried very, very hard 
over a long period of time and it had absolutely no impact.
    It had no impact on their accuracy in part because accuracy 
was not the problem. They were very accurate in bombing 
markets, schools, bridges. In fact, we gave them a list of 
targets they were not to strike and they then proceeded to 
accurately strike them and the result is a conflict that as we 
have heard has massively impacted the civilian population and 
helped Iran.
    The question has been raised, what influence would we have 
if we stopped? And I wanted to ask you, Dr. Karlin. You know 
the full extent of our relationship with Saudi Arabia, how 
embedded we truly are. It is much more than just targeting 
assistance. And I wanted to ask you if we pulled back entirely, 
including on the assistance that we provide for the servicing 
of Saudi aircraft, the U.S. Government and contractors and 
private companies, how long could the Saudis actually, 
practically, sustain significant air operations over Yemen? 
Could they go on the offensive for a sustained period of time?
    Ms. Karlin. Thank you. While I cannot give you an answer in 
terms of time, I can say that U.S. support is critical to the 
Saudi effort. Moreover, when you look across the range of U.S. 
support to the Saudi military there are a number of different 
programs, whether it is with the Saudi navy, the Saudi air 
national guard, it is just--excuse me, the Saudi national 
guard--there is kind of a plethora of programs that permeate 
the U.S.-Saudi relationship.
    So when we are talking about pulling back it is important 
to think through what do we want to pull back and what do we 
actually maintain? And too none of us want to see it in a 
binary sense, I think, completely. You know, one of the 
challenges we do have here is over the last 2 years we have 
seen what the new power center in the crown prince has kind of, 
how he has governed, how he has governed Saudi Arabia. And we 
have seen just a number of extremely problematic decisions 
domestically and across the region that I think have caused a 
lot of us to call into question his ability to make the right 
choice.
    Mr. Malinowski. It has also been suggested that if we were 
to pull back in that targeted way the Saudis could go to other 
powers, to the Russians, to the Chinese, that they do not 
actually need American support.
    Mr. Sullivan, if I could ask you to address that and 
specifically perhaps tell us could the Saudis service F-16s 
with MiG parts, for example?
    Mr. Sullivan. It would take--well, the short answer to that 
question is no, they could not.
    Mr. Malinowski. If Iran were to start interfering with 
shipping in the Persian Gulf would the Chinese navy come to 
Saudi Arabia's rescue?
    Mr. Sullivan. No.
    Mr. Malinowski. No. Saudi Arabia has an existential 
interest in maintaining a relationship with the United States. 
I assume all of you would agree with that.
    Mr. Sullivan. Yes. And I do not think they can just say, 
well, we do not need the U.S. because the Russians and Chinese 
will come fill in the gaps. I do not think they will, they can 
do that.
    Mr. Malinowski. Let me also bring up the Khashoggi case 
which we have not really discussed very much here. It has been 
suggested accurately that there are a lot of human rights 
problems in Saudi Arabia, beheadings, journalists are arrested 
and killed, it is absolutely true. I would argue that this is 
very different.
    It is not a human rights issue in Saudi Arabia. This is an 
example of a country reaching across its borders to kill 
somebody who had been given protection in the United States in 
a democratic country in the Western world. This is not normal. 
This does not happen frequently in the world. The Russians did 
it to somebody in England recently. There are very few other 
examples I can think of.
    But would you agree that it is a paramount interest of the 
United States as a country who is home to thousands of Jamal 
Khashoggis, people who are in exile from their countries, who 
are critics of their governments, is it not a paramount 
interest of the United States to come down extremely hard when 
something like this happens so that it does not become a norm?
    Ms. Karlin. We should absolutely be concerned. And what is 
sad, to be honest, is that we should not even be that surprised 
by what happened with Jamal Khashoggi. You had already seen the 
kidnapping, if you will, of Lebanese Prime Minister Hariri. You 
had obviously seen all these actions in Yemen. You have seen 
the arrests of a whole bunch of, frankly, the crown prince's 
relatives in the Ritz Carlton.
    So we have seen kind of example after example, the Qatar 
blockade of just making the wrong choice over and over and 
unfortunately this has been the most spectacular. What worries 
me the most also is that the Saudi leadership still seems 
pretty confident. And I think this body has an important role 
to say to remind them that we have at least some lines.
    Mr. Malinowski. Thank you. Well said.
    Chairman Engel. Thank you.
    Mr. Guest.
    Mr. Guest, if you just push the button.
    Mr. Guest. I am sorry, thank you.
    Mr. Singh, in your written testimony on page 3 you talk 
about the fact that there is ongoing disputes between members 
of the GCC and that has caused limited cooperation. Has that 
limited cooperation, has it, and please tell us how it has 
impacted the region as a whole.
    Mr. Singh. Sure, thank you, Congressman. I think that the 
split in the GCC between Qatar on the one hand and Saudis, 
Emirates, Egyptians who are outside the GCC on the other hand, 
has been troubling for the United States because I think we had 
hoped to forge an alliance between the GCC, other like-minded 
States in the region, and ourselves to tackle common threats 
like terrorism, the threats posed by Iran and so forth. And 
this dispute has undoubtedly distracted from that.
    It is also probably, arguably, led the Qataris into closer 
relationships with, say, the Iranians, the Chinese and 
Russians, and so on and so forth. It is a longstanding dispute 
and so we should not be surprised, I think, by it. I think 
there is a larger problem though in the region that this is 
just one part of and that is just poor coordination overall. We 
have seen traditional political groupings like the Arab League 
diminish in importance and effectiveness.
    This region has the least economic integration of, I think, 
any region of the world and so it is the overall integration 
not just militarily, but also diplomatically, economically, 
which I think limits the effectiveness of, say, these partners 
to solve problems within their own region.
    Mr. Guest. And, Mr. Singh, you also said in your written 
testimony, on page 5 you said in your view it would be a 
serious mistake to jettison our partnership with Saudi Arabia 
or other Gulf allies. Could you expand on that very briefly?
    Mr. Singh. Absolutely. Well I think that there is two 
reasons for that. No. 1 is this alliance, these alliances we 
have in the region are not just about accomplishing things 
through the allies, it is about preventing adverse scenarios, 
preventing worse outcomes. We want to influence Saudi 
decisionmaking so that they make better decisions. That is 
obviously challenging right now. We want to see stability in 
these countries. Instability in a place like Saudi Arabia could 
be devastating for our interests in the region.
    Over time, I think if we are serious about reallocating 
resources to other regions of the world about a great power or 
competition strategy, we will need to work more through allies 
in this region if we are not going to simply put our interests 
aside. And so that means that over time we have to turn them 
into allies like the Israelis, like the Emirates to some extent 
who can act in our stead, in a sense.
    And so, look, these are the allies we have in the region. 
If it were not for difficult partners in the Middle East we 
would not really have any partners, would we? And so turning 
these partnerships into better partnerships needs to be our 
goal.
    Mr. Guest. And if we were to end this relationship with the 
Saudis, do you believe that it would damage our ability to 
influence them as it relates to improving issues such as human 
rights in their country?
    Mr. Singh. Absolutely.
    Mr. Guest. And then finally a kind of a followup, and I 
think you touched on this earlier. On page 7 of your written 
testimony you say that the withdrawal of U.S. support to the 
GCC coalition or the suspension of U.S. arms sales to Saudi 
Arabia or the UAE are unlikely to end the conflict or ease 
humanitarian conditions in Yemen. Do you still feel that way?
    Mr. Singh. I do, yes. I think it is important to bear in 
mind that as we have this conversation about our security 
relationship with the Saudis or with the Emirates that is not 
the same as talking about a strategy to end the conflict, the 
multiple conflicts in Yemen. If we were to withdraw our 
support, yes, we might increase the difficulties the Saudis 
have in sustaining their operations.
    But I do not believe the conflict would end. I do not 
believe that the other conflicts in Yemen would improve either, 
nor, frankly, do I think we would absolve ourselves of 
responsibility for our longstanding involvement in the 
conflict.
    Mr. Guest. And, Mr. Sullivan, as it relates to Mr. Singh's 
answer to the last question, do you agree or disagree with his 
assessment?
    Mr. Sullivan. I agree to the extent that it would not end 
the conflict, of course. I do not agree that it would have no 
impact on the conflict. I believe that the threat to reduce or 
curtail our aid has over time made the coalition make different 
and, in my view, more constructive decisions. At the end of 
last year they were more likely to enter the Stockholm 
Agreement because of what the Senate did. Earlier, CENTCOM 
withheld certain provision of various types of technologies, 
minesweepers and other things, and it changed their calculus as 
respects Hodeida.
    So I do believe the United States deciding to pull back its 
offensive support to the coalition would have an impact on 
coalition decisionmaking that I believe would be positive. And 
even if it didn't, I would argue we have only contributed to a 
worse situation by being in and so we should no longer be in.
    Mr. Singh. Can I just make one point in response to that 
because I do not think we fundamentally disagree, but I think 
that having that leverage and achieving those outcomes requires 
that there be some possibility that you will continue the 
partnership if they take certain actions. If you just cut the 
support off then you do not have that leverage.
    Mr. Sullivan. And to clarify, I am not saying cutoff the 
partnership with Saudi Arabia. I am saying cutoff certain 
systems that they are using and certain assistance that they 
are using to bomb civilians in Yemen. We have plenty of 
leverage through the broader security partnership with Saudi 
Arabia that we can bring to bear in a constructive dialog with 
them.
    Mr. Harden. Yes. I just want to add one point on this. I 
mean UAE is actually also quite involved on the Hodeida 
operations and so that is an element that I think we are 
missing in this conversation as well. So if you cutoff the 
relationship with the Saudis, you are also going to cutoff the 
relationship with the UAE over Hodeida. I do not think that we 
will, or at a minimum we need to discuss it.
    Mr. Guest. Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Trone.
    Mr. Trone. I thank you all for coming here today.
    In your written testimony, Mr. Sullivan, you spoke about 
actions taken by Saudi Arabia in the last few years and maybe 
we could just say versus Saudi Arabia and say the crown prince 
regarding destabilization in Yemen; the Ritz, we will call it a 
robbery, extortion; the kidnapping in Lebanon of the Prime 
Minister; the repression throughout Saudi Arabia, kidnapping, 
et cetera; the blockade of Qatar; and of course, Khashoggi.
    What is the most effective thing we could do to help combat 
and tell the Crown Prince enough is enough; we cannot keep 
going down this route item after item after item?
    Mr. Sullivan. Well, I think it starts by saying that we are 
going to need to redefine the terms of this relationship. Not 
to throw it overboard, not to just try to punish Saudi Arabia 
for the sake of it, but to make sure it aligns better with U.S. 
interests. So I think you start there then you work through 
each of the issues you just said.
    With respect to Yemen, as I have proposed I believe that we 
should end support for the offensive operations in Yemen and no 
longer be giving the crown prince the support that he has been 
getting to carry on an operation that is counterproductive to 
our interests.
    With respect to the GCC issue and the blockade of Qatar, I 
think this is something where the United States is going to 
have to be an honest broker on both sides, but we have to tell 
the leadership in Saudi Arabia that this is running counter to 
U.S. interests as long as it continues.
    And then with respect to Khashoggi, I believe there needs 
to be an impartial, independent investigation and the Saudi 
investigation is not sufficient. And Secretary Pompeo basically 
saying it is sufficient, I think, flies in the face of basic 
logic. There needs to be an independent investigation and 
anyone who was complicit in this decision needs to be held 
accountable.
    Mr. Trone. In December I was in Israel and we met with all 
the various leadership there, and it is certainly crystal clear 
that they do not want to run from Saudi Arabia. They think if 
we do not continually unconditionally support Saudi Arabia we 
do not have the block against Iran. But at the end of the day I 
take a little different view, I think, long term.
    Crown Prince is 33 years old. We have seen the litany of 
things that he has accomplished, none of which are good. And 
the question is, if we do not continue to--if we do not stand 
up, if we do not draw a marker in the sand at some point in 
time and say enough is enough, we are going to have him as the 
king for 50 years, so 50 years we are going to enshrine an 
individual that is morally bankrupt that has been an ongoing 
problem against U.S. interests.
    So what can or should we be doing to try and think the long 
view for the next 50 years?
    Mr. Singh. Can I chime in on this, Congressman? I do not 
know if you were directing that question just to Jake, but I 
think that the problem we face is that he will be there for 50 
years whether we do those things or not.
    Mr. Trone. But does he have to be there for 50 years or do 
you just want to accept that?
    Mr. Singh. And I think that it is a false choice between, 
say, walking away from the alliance or uncritically embracing 
the leadership in Riyadh. I think the third way, as it were, is 
a more intensive form of engagement where we try to influence 
the leadership in Saudi Arabia supporting the elements of his 
program that we like and there are elements of the program that 
we like.
    Mr. Trone. Any of those issues I mentioned do you like?
    Mr. Singh. What is that?
    Mr. Trone. Any of those items I mentioned you like?
    Mr. Singh. Well, I think there is things you hinted at that 
we do like. We like the fact that they are drawing closer to 
allies like Israel. We like the fact that they are stepping 
back their support for extremism around the world. Frankly, I 
think most American officials would say we agree with the need 
to diversify the Saudi economy which is part of his agenda.
    What we do not like are a lot of those foreign policy 
actions that you saw. But I think again the way to influence 
those things is through intensive engagement. We have no 
Ambassador in Riyadh. We have no Assistant Secretary of State 
for near Eastern Affairs. We need to get these officials in 
place, we need to empower them.
    And then on the Saudi side we need to try to expand the 
points of contact in this relationship so that there is not 
that kind of single point of failure that I think we have right 
now.
    Mr. Trone. But should we just accept, Mr. Sullivan, blindly 
for the next 50 years this individual running the key ally in 
the Middle East?
    Mr. Sullivan. I do not think that we at the end of the day 
are going to be able to dictate who the leader of Saudi Arabia 
is, but we are going to be able to dictate how we relate to 
that person whoever it is. And here, my concern is that the 
administration has basically decided that it is unconditional 
support. That is the strategy.
    And I believe the Congress therefore has a deeply critical 
institutional role to play to provide balance in the U.S.-Saudi 
relationship. Because at the end of the day, I think where Mr. 
Singh and I do very much agree is we are going to have to find 
that middle way which is going to have to involve much more 
constructive engagement.
    And this administration does not seem interested in 
providing that and therefore I think the Congress has to come 
forward with a variety of measures to shape this relationship 
and to send a clear message to the leadership in Saudi Arabia 
that we are not going to simply accept any and all activities 
that he is undertaking including those things that run contrary 
to our interests and values.
    Ms. Karlin. We should also just remember this is not an 
alliance. It is an insult, frankly, to our European allies, for 
example, in NATO or our Asian allies like Japan when we refer 
to partnerships as alliances. So I just caution us all. I say 
this from having spent a lot of time in the Pentagon where one 
thinks a lot about what an alliance is and the 
responsibilities, frankly, that it makes incumbent on the 
United States.
    Mr. Trone. Thank you very much.
    Chairman Engel. Thank you.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman and Ranking Member. 
Mr. Chairman, I want to thank you. I caught some of your, you 
were talking at one point about your strong voice against anti-
Semitism and I wanted to thank you for that. I represent a lot 
of folks that share your views as well as I do on that issue, 
so I personally thank you for that.
    And I have a couple of small questions. Due to my 
seniority, all the questions that I would have asked are 
already asked so I will not indulge the committee by asking 
them the fourth or fifth time. But I did notice a great deal of 
frustration out of the first couple of folks speaking and it 
just seemed to me like what the heck are we doing there? I mean 
outside of humanitarian interests why are we involved? Is it 
oil? Is it--what is it?
    If I could maybe just go down the line and you give me like 
a two-sentence answer if that is possible. Pretend like all the 
cameras are not here and it is just you and your family.
    Mr. Harden. I mean with respect to Yemen or the Arabian--
with respect to Yemen, I mean there is an enormous set of 
interests in Yemen. Of course there is the humanitarian, but 
there is also the Iranian element of this. There is the free 
movement of trade and there is just the strategic nature of the 
Arabian Peninsula itself.
    So I am not, I would not advocate that we abandon the 
region or Yemen.
    Ms. Karlin. I would agree. We need to think about freedom 
of navigation. The U.S. has had a special role in that over 
decades and decades across the world. We do need to think about 
energy concerns. And then, frankly, we need to think about 
containment. Vegas rules unfortunately do not apply to the 
Middle East.
    Who would have thought that a conflict in Syria would have 
resulted in actually throwing apart the integrity of the 
European Union? So we need to play a role. However, we need to 
recognize the opportunity costs of our involvement in this 
region are only getting higher and higher.
    Mr. Sullivan. Well, I think with respect to Yemen, 
specifically, the way the United States got engaged in this 
conflict as an indirect participant is because Saudi Arabia and 
the UAE and other Arab countries decided that it represented a 
direct threat to them and we decided we were going to work with 
them to try to respond to that threat. The issue that I have 
consistently tried to raise over the course of this hearing is, 
I think now with going on 4 years of experience under our belt 
in trying to help them, the course that we have taken has made 
things worse not better and therefore we should change course.
    Mr. Singh. I do not have a lot to add to that, Congressman. 
I just want to point to something which has already been said 
that of course we also do have a direct engagement in Yemen to 
counter al-Qaida and to counter ISIS and I think it is 
important we not lose sight of that.
    Mr. Burchett. Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Thank you so much for the opportunity to 
speak today. And I agree that I have at this point few 
questions to ask that are unique but some to followup on. And I 
guess my first followup is a conversation that Representative 
Pence started to have, which has to do with what can Congress 
do, what are the powers and the authorities of Congress in a 
situation like this?
    And I guess what I would like to ask, and I think, Dr. 
Karlin, based on our conversation so far I think you might be 
the first person who can answer this which is if we can go way 
back into the Obama Administration and we talk about the 
original decision to begin things like refueling and other 
sorts of support for the Saudi coalition, what do you think 
that that administration saw, what was their thinking or their 
mindset at the time that deemed it necessary and appropriate at 
that time to go in, in the way that we did without the 
authority and the authorization of Congress?
    Ms. Karlin. Thank you. While I was not a part of that 
discussion, my assumption is the thought process was that the 
Saudis are a close partner that are very helpful for a number 
of regional concerns, they are getting involved in a conflict, 
and we have a lot of experience with these sorts of things so 
we should see what effect our help can have.
    So I think as Mr. Sullivan has discussed previously I think 
it was a good faith effort to see how we could help them really 
use their military force for one of the first few times they 
had done that in a meaningful way. Where Congress, I think, can 
be especially helpful is forcing something that Mr. Singh 
suggested earlier, forcing that step back. Forcing that 
assessment in saying, OK, it has been a couple years. What 
effect have we had, what effect should we have expected to 
have, and what are the costs?
    Ms. Houlahan. And I agree with you, because his 
conversation also talked a little bit about the responsibility 
of Congress having a longer term view in making sure that we 
are thinking hard about why we are at places that we are and 
whether we should stay there. And it just feels as though we 
are in this place right now where we have made a decision and 
even with your description did not sound like a decision that 
was imminent or pressing or needed some sort of a step around 
Congress.
    Here we are and now we kind of have the opportunity to step 
back and look at it. So you do not see that there is anything 
now that would continue to require that there not be an 
authorization on the part of Congress to continue to be 
involved in this area?
    Ms. Karlin. I think Congress's involvement is crucial. It 
is really hard to step back and assess how well the policy you 
are working on is actually working or having the effect you 
want.
    And I think for this committee, writ large, the U.S., the 
executive branch and the military in particular, has focused 
largely on this region for the last 18 years. It is going to be 
extra hard then for any administration to feel comfortable 
stepping back and saying what have we achieved and what have 
not we achieved. That is an uncomfortable and awkward and yet 
crucial discussion that this committee can really help 
facilitate.
    Ms. Houlahan. Thank you. And I really do agree. I do not 
think it is necessarily about one administration or the other, 
but really a question of whether or not this body, this 
Congress should also be involved in that decision of whether or 
not to appropriate these kinds of resources.
    My second question, if I have time, is probably for Mr. 
Sullivan. You spoke really eloquently several times about the 
fact that we should have a bipartisan and very serious 
conversation about a sustainable relationship ongoing. You did 
speak about ideas like curtailing logistical support, about 
disrupting maritime lines, and you also spoke about finding a 
political solution and your hope that there was something 
there.
    Dr. Karlin, you also spoke about efforts for--that the 
military efforts and the diplomatic efforts in many cases are 
at odds with one another and acting counter to one another 
right now. So here we are years later and whatever we are doing 
is not working, so if we end up sort of pulling back one 
aspect, maybe the offensive engagement that we have right now, 
if you can envision not militarily what the consequences will 
be because we talked about that over here, but in terms of 
energy, commerce, all the other sorts of implications about our 
relationship with Saudi Arabia, what can you imagine or 
speculate would happen if ended up offensively pulling out of 
our relationship right now?
    Mr. Sullivan. Do you mean pulling out altogether saying 
sort of breaching the relationship more fundamentally or----
    Ms. Houlahan. No.
    Mr. Sullivan [continuing]. Just with respect to Yemen?
    Ms. Houlahan. Just with respect to Yemen, exactly.
    Mr. Sullivan. Look, I believe that we put in a good faith 
effort to support and provide assistance to this coalition 
effort over an extended period of time and we can make a good 
faith case to our partners that we are done because we do not 
think it is working and, frankly, it is shocking our conscience 
what is happening as a result of this. And I do not believe 
that that needs to or would lead to a fundamental breach or 
disruption in our relationship and that the positive elements 
of that relationship could continue even if the United States 
no longer participated in this and that would be the policy I 
would aim for.
    Ms. Houlahan. OK. I appreciate your time very much and I 
yield back the remainder of my time to the chair.
    Chairman Engel. Thank you very much.
    Mr. Reschenthaler.
    Mr. Reschenthaler. Thanks. I thought I had it. Thank you, 
Greg. I just want to express my gratitude for being appointed 
to this committee and I look forward to working to ensure 
America's continued leadership on the world's stage.
    So having served in Iraq, I know firsthand the challenges 
facing our counterparts in the Middle East and the escalating 
sensitivity of the Arabian Peninsula. Yemen is devastated by 
violence and human rights atrocities as you have discussed 
today. It is estimated that 80 percent of the Yemeni population 
needs humanitarian assistance, 17.8 million civilians are food 
insecure, and approximately 60,000 people have been killed 
since January 2016.
    The humanitarian crisis in Yemen must be addressed 
immediately. However, continued calls for the United States to 
withdraw security assistance from the Arabian Peninsula because 
of this crisis would be a serious mistake. Iran, the world's 
largest sponsor of terror, has been illegally supplying Houthi 
rebels in Yemen with missiles, training, and support in 
violation of the U.N. Security Council resolutions.
    The Houthis use these illegal arms transfer to terrorize 
American allies and counterparts, targeting Riyadh, Abu Dhabi, 
Dubai, as well as civilian aircraft in the region. Just this 
past January, Director of National Intelligence Dan Coats 
testified that al-Qaida affiliate in Yemen, AQAP, remains one 
of the largest and most capable terror groups in the region.
    This is why I fully support continued U.S. security 
assistance and the administration's goal to create the Middle 
East Security Alliance, a regional NATO-like body that will 
deepen cooperation on missile defense, military training, 
counter terrorism, and strengthening regional and economic 
diplomatic ties. I strongly support the U.S. working in 
coordination with our counterparts in the Gulf region. However, 
cooperation shared goals do not equate to blind allegiance and 
obedience.
    The assassination of Jamal Khashoggi and detention of 
women's rights activists in Saudi Arabia do not align with the 
values of the United States and deserve scrutiny. However, 
holding others accountable should not come at the expense of 
the safety and security of the American people.
    Following this hearing, this committee will consider a 
resolution directing the removal of U.S. security assistance in 
the Arabian Peninsula. This resolution is misguided and based 
on a false premise. It does nothing but open the door for rogue 
actors like Iran, China, and Russia to gain a stronger foothold 
in one of the most turbulent regions in the world and continue 
to sow further chaos.
    So with that, Mr. Singh, what are the core functions, in 
your opinion, of the Saudi-U.S. relationship and what other 
interests in the Middle East does this relationship support?
    Mr. Singh. Well, thank you, Congressman. I think you made a 
lot of excellent points there. The U.S.-Saudi relationship is 
one of our major relationships obviously in this part of the 
world. It is obviously not the only one, but U.S.-UAE 
relationship has been discussed here. We have relations with 
the Bahranis, the Kuwaitis, and others who are engaged in some 
of these conflicts.
    Our interests in the Middle East are, I think, quite 
compelling and of concern to ordinary Americans, things like 
counter terrorism, preventing the spread of nuclear weapons, 
ensuring the free flow of energy and commerce, and ensuring 
freedom of action for American forces. As you know, 
Congressman, our military facilities in the Gulf are used not 
just to prosecute conflicts or wars or operations within this 
region but elsewhere, to project power outside of this region.
    These allies like the Saudis, the Emirates, and so forth 
are key partners in all those efforts. Our counter terrorism 
relations with the Saudis are good and with the Emirates are 
good, and frankly we would suffer if we did not have their 
cooperation. They would suffer if they did not have our 
cooperation. It is mutually beneficial.
    I think that again the question is can we turn these 
relationships into something more. And the example of Yemen, 
the example of Syria is discouraging and suggests the need for 
a lot more work in engagement and maybe a rethinking of how we 
are doing our military partnerships, how we are conducting our 
military partnerships. And I think it is absolutely appropriate 
to explore that, but I think that is very different from saying 
let's disengage or walk away or withdraw our assistance.
    Mr. Reschenthaler. Mr. Singh, if we did withdraw, who do 
you think would fill that power vacuum and how would you see 
that playing out?
    Mr. Singh. I think as the U.S. steps back, look, there are 
other great powers, other external powers, let's say, who have 
also interest in this region. The Russians have an interest in 
the region. The Chinese have an interest in this region. And 
whether they wanted to or not, I think as the U.S. steps back 
it increases the incentive for them to increase their 
involvement of the region.
    Already, for example, the Saudis have a tremendous economic 
relationship with the Chinese. I think if the U.S. stepped back 
they would need to look to diversify their external 
relationships.
    Mr. Reschenthaler. Thank you.
    And thank you, Mr. Chairman. I would yield back the rest of 
my time.
    Chairman Engel. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman. I want to first thank our 
distinguished witnesses for coming to testify. Thank you so 
much for taking the time.
    The Saudi-led coalition has engaged in a military action in 
Yemen for a little over 3 years now and the ongoing military 
campaign has triggered one of the world's worst humanitarian 
crises. In the last three and a half years more than 17,000 
people have been killed and another 40,000 wounded. Further, 
three million have been internally displaced and according to 
USAID, 22.2 million Yemenis or three quarters of the Yemeni 
population need humanitarian assistance. Millions are on the 
verge of starvation. There is a cholera outbreak that is tied 
to the Saudi-led war that has erupted in 21 of Yemen's 22 
provinces infecting more, approximately a million Yemenis 
making it one of the worst cholera outbreaks in our history.
    And I know that we are having a conversation about what our 
interests are, but I want us to root this conversation in the 
interest of protecting human life and furthering our values of 
protecting human life. I agree with my colleague, Mr. Perry, 
that we have known for years about Saudi brutality and its 
atrocities, its atrocity record of human rights, women's 
rights, and religious freedom. Where I strongly disagree is 
that we should not have even tolerated this type of behavior 
from an ally.
    As Chairman Engel noted earlier, there is also evidence 
that the coalition is arming the al-Qaida in the Arabian 
Peninsula linked fighters in Yemen, directly undercutting our 
military's objective there. This is also far from the first 
time the Saudis have supported and enabled jihadis. My concern 
is about the way our support for the Saudis, in spite of these 
clear contradictions with our values and our interests are 
affecting our diplomatic credibility in the region. When we see 
other members of that region like Iran commit human rights 
atrocities or engaging in activities that are destabilizing the 
region, we are quick to condemn them and call them out.
    So my question is to Mr. Sullivan. In your answer to Mr. 
Levin's question earlier, you said human rights needs to be at 
a higher priority. Can you explain why that is?
    Mr. Sullivan. In a number of our significant relationships 
around the world including the U.S.-Saudi relationship we 
sometimes have to make decisions about what we are placing 
paramount priority on in terms of what we deal with on a day-
to-day basis. And there are instances throughout Democratic and 
Republican administrations where human rights take a back seat 
to short-term security interest concerns. That has happened in 
the Obama Administration, the Bush Administration, the Clinton 
Administration. It is happening with much more frequency in the 
Trump administration.
    The issue I see with Saudi Arabia is that we have allowed 
that to become so embedded in our muscle memory in the 
relationship that we basically do not really press on human 
rights concerns much at all. And particularly with the current 
President essentially saying, I do not care about those issues, 
do as you please, I think this has reached a point where it is 
no longer sustainable for the United States and that we have to 
find a way consistent with the complexity of our interests in 
the region to elevate the dialog and discourse and urgency of 
our demands of our partners that they do better when it comes 
to how they treat their citizens.
    Ms. Omar. And do you think this double standard is 
impacting our diplomatic credibility in the region?
    Mr. Sullivan. I think it is a broader issue with U.S. 
foreign policy. Any time you are both engaged in power politics 
in the world and you are trying to advance values as the United 
States does, you are going to have certain instances of 
inconsistency and hypocrisy. That is built in to a unique 
attribute of American policy, which is we do care about these 
issues the way a lot of other countries do not and so 
necessarily sometimes there will be inconsistency.
    I do not think that has to undermine our credibility, but 
it does mean we have to be more forthright and honest about it 
and do a better job of making sure that we are not simply 
ignoring human rights issues, I think, as we all too often have 
done in this relationship, again in a bipartisan way. I am not 
trying to use this as a political cudgel just against this 
administration.
    Chairman Engel. Thank you.
    Ms. Omar. Thank you. I yield back.
    Chairman Engel. Thank you.
    Ms. Wagner.
    Mrs. Wagner. I thank the chairman and the ranking member 
for organizing this hearing and thank our witnesses for being 
here.
    Our Gulf partners have proven invaluable in opposing Iran's 
destabilizing agenda, fighting terrorism, and recognizing 
Israel's right to exist, and I believe we must continue holding 
our allies to a high ethical and humanitarian standard. I 
appreciate the opportunity to learn more about U.S. efforts to 
prevent civilian casualties and foster respect for human rights 
in the Arabian Peninsula.
    When Canada's foreign minister criticized egregious human 
rights abuses, the Saudi Government expelled the Canadian 
ambassador, withdrew its own Ambassador to Canada, and froze 
pending trade and investment deals. The Saudis have engaged in 
similar disputes with Germany and I believe Sweden also.
    Mr. Singh, are Canada, Germany, and Sweden coordinating a 
response to the latest diplomatic feud and how can we support 
our Canadian partners?
    Mr. Singh. Thank you, Congresswoman. I do not know that 
they are coordinating a response, so it is not something I have 
heard about. But I do think that the episode you cite is an 
example of the kind of, frankly, reckless actions by the Saudis 
that are concerning to us, that are troubling to us, because it 
was a valid criticism and the Saudi response was, in my view, 
totally out of proportion to what the Canadians had done.
    I would have liked to see us back up our Canadian allies in 
their criticism of the Saudis because I do not think, and this 
goes to what Mr. Sullivan was saying, I do not think it is good 
for us or, frankly, good for the Saudis that they feel as 
though they can kind of intimidate other countries into not 
criticizing them.
    From my point of view this is not just a matter of values 
or morals, though those things are important, when human rights 
abuses are allowed to go forward unchecked I think it also 
endangers the stability of these countries and it encourages 
extremism.
    Mrs. Wagner. Thank you.
    Increasing access to affordable food, fuel, and medicine is 
key to restoring stability in Yemen, but Houthi rebels have 
disrupted the movement of imports by targeting commercial and 
military vessels transiting the Red Sea and Saudi Arabia has 
imposed periodic blockades. Dr. Karlin, how can the 
international community support freedom of navigation in the 
Red Sea and facilitate the movement of necessities to Yemeni 
ports?
    Ms. Karlin. Thank you for that question. I think the U.S. 
military can be helpful as can regional militaries in 
facilitating freedom of navigation through these areas whether 
it is assisting and transporting, whether it is helping 
regional navies through exercising by showing them how they 
might responsibly operate in that area, all of which can be 
useful.
    Mrs. Wagner. Mr. Singh, preventing civilian casualties in 
the Yemen conflict is a primary goal of the U.S.-Saudi military 
cooperation. Can you describe how the United States is working 
with the coalition to end the killing of civilians? How 
effective have these efforts been?
    Mr. Singh. Well, Congresswoman, obviously this is, I think, 
a top concern for our military officials and also our 
diplomatic officials who are dealing with this issue. As has 
been discussed here a little bit, we have done a number of 
things. One is by providing precision munitions to our allies. 
We have especially in the wake of particular incidents worked 
on the training of pilots, we have tried to help the Saudis in 
terms of investigating incidents to determine exactly what 
occurred, and we have also worked with them on questions of 
intelligence in these sort of do-not-target lists and so forth.
    As far as I understand it, and obviously you would want a 
full briefing from our military officials, that is what we have 
done. I think that my impression is that the--I have not heard 
any U.S. officials, let's put it that way, say that they feel 
as though the Saudis are deliberately targeting civilians. If 
we felt that way I think we would have to end our cooperation 
with them.
    But I think we need to appreciate that the level of care 
and precision that the U.S. military brings to these conflicts 
is simply frankly, unmatched almost anywhere else in the world 
and that is why these kinds of long-term efforts of bringing up 
the abilities and capabilities of our allies is so important.
    Mrs. Wagner. Mr. Sullivan, U.S. agencies and international 
NGO's are struggling to access areas in desperate need of 
humanitarian assistance. How can we work with our allies to do 
more to increase access for the U.N. and international NGO's 
and any points of leverage that can be used to achieve this 
with the Saudis and the Emirates?
    Mr. Sullivan. I defer to the expertise of Mr. Harden who I 
think has made a couple of really important points today. One 
is that a lot of this rests with the Houthis over whom we do 
not have influence but who we should be sure to be shining a 
spotlight on the extent to which they are blocking access 
through Hodeida.
    But with the Saudis and Emirates, I do think that we have 
influence and leverage both to open corridors across the Saudi 
border, as Mr. Harden said earlier, and in respect to the 
Stockholm Agreement which is fragile and sort of quasi-holding, 
working to restrain the Saudis and Emirates so that more 
channels coming out of Hodeida can be opened beyond the 
basically the one road that is coming out right now.
    So those are available to us, but it is an imperfect set of 
tools because so much of this rests on making sure the Houthis 
step up to do their part.
    Chairman Engel. Thank you very much.
    Mrs. Wagner. My time is expired.
    Chairman Engel. Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I wanted to first just followup on 
Congresswoman Omar's questioning about where human rights fits 
into our foreign policy.
    And, Mr. Sullivan, when you said that, you talked about 
power politics in advancing values and the need for 
inconsistency when using power politics in advancing values, 
obviously the suggestion being that there is always or, if not 
always, certainly many times where those two things are 
inconsistent.
    Can I ask--you started talking about the ways that we can 
use our leverage. Isn't advancing our values, is not standing 
up for human rights, does that not actually give us more power? 
Doesn't that when we engage in power politics making clear what 
it is that motivates us, strengthens us as we confront the 
difficult issues and sometimes difficult challenges in 
governments that we deal with?
    Mr. Sullivan. Thank you for giving me the opportunity to 
potentially clarify because it sounds like I may have not made 
myself clear. I am not arguing that the United States should 
not be standing up in a consistent and resolute way for human 
rights. Indeed, I said in my earlier answer to Congresswoman 
Omar that there is something unique and special about the 
United States in this regard and we need to work desperately to 
hold onto that.
    What I am saying is that in a complex world where we have a 
range of interests with any given country, there are 
necessarily going to be times where standing up for human 
rights is not going to be the only issue on the agenda. And 
just to give an example, when the street protests began in 
Bahrain and Bahraini activists came to us and said essentially 
support us over a government who is repressing us, we had to 
think very hard about the fact that the Fifth Fleet is 
headquartered in Manama. That was a factor in our 
decisionmaking.
    Now I would say at the macro level long term there is 
nothing inconsistent between our interests and our values, they 
converge. But in the short term there are going to be times 
where we do business with countries with whom we radically 
disagree, where we have partnerships with countries who do not 
share our values. And in that I think we just have to get more, 
I think, forthright and honest about the extent to which these 
are sometimes difficult circumstances.
    And the problem I see in the Saudi relationship is we have 
allowed that thinking to go to its extreme to the point where 
we really do not treat human rights as a key feature of the 
relationship at all. That is my view.
    Mr. Deutch. So sticking with the Saudi relationship, when 
you say that we may overestimate our leverage, I know there has 
been a lot of discussion about weapons sales. What other 
leverage do we have and getting back to the power politics and 
advancing values, in an instance where a journalist is murdered 
and decapitated, how does speaking out forcefully against that 
and looking and demanding accountability and looking for ways 
to ensure that there is accountability, how does that interfere 
with the power politics that are very much in play?
    Mr. Sullivan. Well this is a great example of where there 
is a vigorous debate and many in the administration are very 
much on the other side of this debate, basically saying if we 
push too hard on the Khashoggi issue we are going to lose Saudi 
Arabia and that will come at a cost to our larger interests in 
the world.
    Now I happen to radically disagree with that both because I 
think we have much more leverage in this relationship than the 
Saudis do and because as others have said on the panel, at some 
point you reach a breaking point. And the wanton murder of 
somebody who was under U.S. protection was a resident of the 
United States in a foreign embassy is well past that breaking 
point, in my view.
    So the argument I am making is that we can--it is not 
enough to simply say we stand for human rights and that is 
great, it is to problematize the situation. It is to stare it 
square in the face. It is to say oftentimes we say that and 
then we do not really do it and more and more with respect to 
Saudi Arabia we should be doing it.
    Mr. Deutch. And so play that out then. So again other than 
weapons sales or in addition to weapons sales, what is the 
leverage that we should be looking to utilize?
    Mr. Sullivan. Well, one thing that we have done so far of 
course is under Global Magnitsky we have sanctioned 17 Saudi 
nationals who we believe were engaged in this. But I think we 
should take an additional step of demanding an independent, 
impartial, international investigation and whomever is 
determined to have played a role in this or been responsible or 
directed this should equally be held accountable under United 
States law.
    Mr. Deutch. Thanks, Mr. Sullivan. Thanks to all of our 
witnesses for being here.
    Chairman Engel. Thank you.
    Mr. Lieu.
    Mr. Lieu. I thank you, Mr. Chair.
    Getting the U.S. out of Yemen is not and should not be a 
partisan issue. I and other Democrats and Republicans in 2015 
started criticizing the Obama Administration. We wrote letters. 
We did press conferences. We introduced legislation. And it was 
not just a humanitarian catastrophe that was happening, one of 
the primary drivers was war crimes and as result of the 
pressure the Obama Administration, in fact, took action.
    So, Mr. Sullivan, it is correct, is not it, that the Obama 
Administration actually stopped a shipment of precision guided 
munitions to Saudi Arabia?
    Mr. Sullivan. Yes, they did and then it was restarted.
    Mr. Lieu. Under the Trump administration.
    Mr. Sullivan. Right.
    Mr. Lieu. Now the reason the Obama Administration stopped 
that shipment is they did a review and they figured out it was 
not the case that the Saudis were trying to hit some moving 
Houthi, missed, and then hit a funeral. What, in fact, happened 
is they very precisely intended to hit the targets that they 
hit, they struck schools. They struck hospitals. They struck 
wedding parties. They struck civilian markets. And then they 
struck a funeral that had hundreds, that killed hundreds and 
injured hundreds of people, and then the jets came around, 
struck the same funeral again.
    So the Obama Administration figured out then, in fact, 
precision guided munitions were killing more civilians than if 
they were not precision guided. And is not that one of the 
reasons they decided to stop that shipment, Mr. Sullivan?
    Mr. Sullivan. Yes.
    Mr. Lieu. OK.
    So, Mr. Singh, I am going to give you an opportunity to 
talk because I disagree with what you said and you did give 
testimony that somehow precision guided munitions would cause 
less civilian casualties. It looks like it is the opposite. 
Especially because if you just look at what happened a few 
months ago, the Saudis very precisely struck a school bus 
killing over 40 children and then they admitted they intended 
to hit that bus. So if you would like to comment, Mr. Singh.
    Mr. Singh. Well, Congressman, I cannot--obviously I am not 
a military official or privy to the intelligence that you are 
privy to. All I can tell you is that when I have asked U.S. 
officials these questions they have suggested to me that they 
feel the problem is a question of competence and ability as 
opposed to the question of intent on the part of our partners. 
But I think it is, frankly, Congressman, a question you should 
be asking the administration rather than me because I do not 
have that information.
    Mr. Lieu. I am not asking you. You had made a statement to 
a colleague of mine that somehow precision guided munitions 
would somehow cause less civilian casualties.
    Mr. Singh. It is generally the belief, Congressman.
    Mr. Lieu. Right.
    Mr. Singh. That is why we use precision guided munitions 
because they reduce civilian casualties.
    Mr. Lieu. Correct. Right.
    Mr. Singh. And if you compare Yemen to Syria, I think you 
can see that very clearly. But the specific question as to the 
targeting and intent of our allies, I have to refer you to our 
military officials.
    Mr. Lieu. Thank you. And so my only point is they reduce 
civilian casualties if the civilians were not, in fact, 
targeted. So that is a problem, right, the Saudis are, in fact, 
targeting civilians. How do we know? They admit it. They 
admitted publicly they intended to strike that bus. So I would 
suggest that the U.S. officials you are talking to are, in 
fact, lying because just based on public Saudi statements. That 
is why I wrote a letter to the Department of Defense Inspector 
General to investigate whether DoD personnel or other personnel 
are complicit in war crimes.
    So I am going to ask you, Mr. Sullivan. It is true, right, 
that both international law as well as regulations in domestic 
law prevents U.S. personnel from engaging in war crimes?
    Mr. Sullivan. Yes, of course.
    Mr. Lieu. Right. And then you cannot actually aid someone 
that you know who is committing war crimes as well; is not that 
right?
    Mr. Sullivan. Correct.
    Mr. Lieu. OK. So let me now move to a related but separate 
area. A public reporting is that the crown prince had bragged 
that Jared Kushner was in his back pocket. We also know that 
based on this reporting Jared Kushner made an unannounced trip 
to Riyadh catching some intelligence officials off guard. This 
was not a trip that he had disclosed to anyone. And then we see 
sort of this complete kowtowing to Saudi Arabia by Donald Trump 
and the administration.
    So, Mr. Sullivan or any other members on the panel, I just 
want to get your thoughts on whether you think it is that they 
just happen to think Saudi Arabia has a bunch of money and oil, 
or is there something more nefarious going on?
    Mr. Sullivan. I think there is sufficient legitimate 
questions about the potential business interests of both the 
Trump organization and Trump family and the Kushner family with 
respect to the Gulf and Saudi Arabia in particular that it 
demands more investigation. But we cannot jump to conclusions 
on that. That is something the Congress could take up.
    Mr. Lieu. Thank you.
    And let me thank Chairman Engel for creating a subcommittee 
of Oversight on the Foreign Affairs Committee to do exactly 
that. And I yield back.
    Chairman Engel. Thank you.
    Mr. Costa.
    Mr. Castro. Thank you, Chairman. And I know, I think I am 
the last one so most of the questions have been asked already.
    Chairman Engel. Well, actually, Mr. Castro, Mr. Costa came 
so I am going to call on him.
    Mr. Castro. All right.
    Chairman Engel. And then you will truly be the last one.
    Mr. Castro. All right.
    Chairman Engel. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and the 
ranking member. It is good to be back on the Foreign Affairs 
Committee. We have had a very impressive group of witnesses 
testify today. And I apologize, with other committee hearings I 
have been in and out of the meeting, so I obviously have not 
been able to track all of the questions and your comments but, 
and I apologize if this question has been asked already.
    But in the event that this resolution that comes up and as 
we look at our ability to develop some renewed effort and this 
committee has been good at it, generally speaking, on 
bipartisan agreements on issues affecting our country off the 
water's edge, but what do you think are the likely consequences 
of passing this resolution today and the impacts as we go ahead 
to try to put some borders in terms of a foreign policy in this 
country that has continuity and that reflects a tradition that 
has existed through past administrations both Democratic and 
Republican that protects and reflects the alliances that have 
been crucial post-World War II to the world we live in today?
    And I would like in that context to get your thoughts on 
because I think obviously there are going to be future 
resolutions that we will be acting on that will come to us as 
we try to provide some sidewalls, I guess, for a better term in 
terms of this zig-zagging or ricocheting of a foreign policy 
that many of us perceive as taking place over the last 2 years.
    Mr. Sullivan. So I would start by saying that the first 
thing that this can do is actually much beyond just Yemen. It 
is something that was built into your question which is it is 
the assertion of Congress that it has an important bipartisan 
role to play in the participation of the United States in 
military activities across the Middle East and across the 
world. And that is relevant to a series of questions that have 
not really been visited by the Congress since the passage of 
the resolutions in 2001, to use military force in 2001 and 
2002.
    So I think it would be a big step forward in terms of the 
assertion of this body that it is going to be a fundamental 
part of the conversation about the balance of U.S. interest in 
the region and where military force and activity is appropriate 
and where it is not. I also think it will send a message to the 
international community and to the participants in this 
conflict that the United States is not simply going to allow 
business as usual to continue.
    And I think the Senate passing the resolution last year did 
have some effect on the calculus of the Saudi-led coalition. I 
do not think it will impact the Trump administration. I think 
they will conclude that they can continue their activities 
uninhibited, but I think it will have its due effect.
    Mr. Costa. They may. But I think it certainly provides an 
illustration of what we think the importance of a well thought 
out foreign policy and not one based on tweets as you said in 
your earlier comments today that is unprecedented, I think, 
with any previous administrations. The fact is, is that we 
should assert ourselves. Congress in recent years has abdicated 
its role to a large extent, I think, and clearly there are 
other issues. Many of us work with our European allies. They 
are very concerned and wondering what our policy is on any 
given day.
    Would some of the others, would you care to comment?
    Mr. Singh. You know, I have to say, Congressman, that I do 
not fully agree with Mr. Sullivan on this point. I am a strong 
believer in congressional oversight of the executive branch. 
Having only worked in the executive branch myself, I think 
Congress plays an important role. I do not think though that it 
is right to say that the types of support we are offering to 
our partners, the Saudi-led coalition in Yemen, constitute 
hostilities if this is the question before the committee.
    And I worry about the precedent that would set for our 
ability to support partners around the world. We want other 
States in general to step forward and take some of the burden 
off the United States and we see partners in some parts of the 
world doing that. The French are active, for example, in the 
Sahel in Africa. In exigencies if there were, for example, a 
war between Israel and Iran, we want to be able to provide 
certain types of assistance below the level of engaging in 
hostilities with our partners.
    Mr. Costa. No, of course. But of course it depends upon how 
that policy is pursued and its impacts and the effects of it 
and whether or not, I mean sometimes we support a policy and it 
does not turn out the way we had hoped it would.
    Mr. Singh. That is absolutely true. I would just be 
careful. I would, actually, I would advise caution on the terms 
of the precedent that is being set.
    Ms. Karlin. We need to be cognizant. Our partners have some 
warts, no doubt. The most effective U.S. policy is one that 
blends carrots and sticks. I think what we have seen from this 
administration so far has been all carrots vis-a-vis the Saudis 
and that is problematic. And Congress can be helpful in shining 
a light on many of the warts.
    You know, Mr. Sullivan, I think, clearly articulated that 
there are a number of times where the U.S. for various reasons 
ends up making compromises. It is important that we are sober 
and clear-eyed about when we are making those compromises and 
it is worth reminding ourselves of course that the Houthis do 
not pose a transnational threat to U.S. national security.
    If this were a conversation about Hezbollah I would have a 
very different response and I suspect many of us would as well. 
But a reminder that U.S. assistance comes with some sticks is 
crucial and there are various ways one might exert that.
    Mr. Harden. So I just want to note that the role of 
Congress at the Foreign Service level in embassies and at the 
diplomatic exchanges has a very profound impact on how we shape 
our conversation and the points that we push, so we should 
never minimize that. Second, I would associate myself with Mr. 
Singh in the sense that the oversight role of Congress is 
extraordinarily important, but the narrow question as to 
whether or not these activities constitute hostilities, I 
think, may be beyond what the goal is in terms of carving back 
actual hostile actions by the administration.
    Chairman Engel. Thank you very much.
    And now we go to Mr. Castro this time, last but certainly 
not least.
    Mr. Castro. Thank you. I was going to say earlier that I 
had three committee hearings at the same time, so I think most 
of the questions have been asked already.
    But let me ask you all and whoever wants to answer it 
whether you think MbS is a rogue or a reformer based on what 
you have seen so far?
    Mr. Harden. I do not think--that is too crass of a choice, 
I think.
    Mr. Castro. No, I know. You said it is non-binary, what is 
he?
    Mr. Harden. I think he could be a reformer who is also 
acting in authoritarian ways that is counterproductive at 
times, so both.
    Ms. Karlin. We have seen evidence that he has taken steps 
in both directions and I think we should recognize those steps. 
Yes, he has made progress in terms of opening up Saudi Arabia, 
women driving, all of that the economy piece, great. He has 
also taken a number of really irresponsible steps as we have 
discussed a bit here, whether it is arresting folks in the Ritz 
Carlton; the Hariri hostage-taking, if you will, or kidnapping; 
obviously the blockade against Qatar; the Jamal Khashoggi 
affair; the war in Yemen.
    And so he is on one level stumbling in really key and 
worrisome ways, on another level he is taking some steps that 
are meaningful. When you go to Saudi Arabia it is a little bit 
different than it was when you went 10 years ago. So figuring 
out how to sort of tame his worst instincts of which I think 
they are profound, and I cannot kind of underscore that enough, 
while trying to elevate the handful of right steps he is making 
is important.
    Mr. Castro. And, Dr. Karlin, you mentioned in your last 
comment that with respect to the Trump administration it has 
been mostly carrots with respect to Saudi Arabia and that there 
have been really no sticks. What sticks would you apply to 
Saudi Arabia?
    Ms. Karlin. I would encourage investigations, so mandating, 
say, that there needs to be an investigation into the Khashoggi 
affair and an actual independent one, not one that is coming 
obviously from the leadership. I would look at tightening the 
U.S. security cooperation more broadly with the Saudis.
    And I would not underestimate the significance of just 
verbal articulation of what is wrong. People hear that, people 
know that, and it should start to worry them. If the leadership 
in Riyadh is only hearing kind of positive endorsements from 
the administration, it is crucial that that gets balanced by 
Congress emphasizing that there are things that are right and 
things that are wrong.
    Mr. Singh. Can I just say I do not really agree with the 
characterization of the Trump administration's policy in the 
sense that----
    Mr. Castro. Which part, that there have been no sticks?
    Mr. Singh. That there have been no sticks. I mean we have 
seen 17 Saudis sanctioned under the Global Magnitsky Act as a 
result of the Khashoggi assassination. Sanctioning members of 
allied governments is a significant step. I think we need to 
acknowledge that. We have also seen the Trump administration 
partly, I think, in response to pressure from Congress suspend 
the midair refueling for the Saudi-led coalition in Yemen. And 
also I think my understanding is that Secretary Pompeo in his 
private meetings with the Saudis has delivered messages on some 
of these issues, the women's rights activists, Khashoggi, the 
war in Yemen. I think publicly they have been quite supportive.
    Mr. Castro. Do you think we have done enough in response to 
Khashoggi and the situation in Yemen?
    Mr. Singh. I think Congressman, that what we need is much 
more engagement with the Saudis at multiple levels. My concern 
is that right now this relationship is in the hands of too few 
individuals on both sides. I would like to see us have----
    Mr. Castro. You mean Jared Kushner?
    Mr. Singh. What is that?
    Mr. Castro. Jared Kushner?
    Mr. Singh. I think on both sides it is in too few hands. We 
have no Ambassador in Riyadh, the Assistant Secretary of State 
for Near Eastern Affairs nomination is held up right now, and I 
think this relationship will only be healthier when we are able 
to broaden it and diversify it in that way and it will involve 
both carrots and sticks. And I think sometimes it is 
appropriate that it will involve tough private messages but 
some public support.
    Mr. Castro. Anything, Jake?
    Mr. Sullivan. I think I do not have confidence presently 
that there is a huge difference between the private messages we 
are sending the Saudis and what we are hearing publicly. I have 
not seen evidence of that. I do not see any sense in which the 
leadership of Saudi Arabia and the crown prince right now feel 
that they are under any meaningful pressure from this 
administration. And I do think we need to take further steps in 
response to the Khashoggi affair, that it is not sufficient, 
the 17.
    Mr. Castro. I think part of the difficult part of that is 
that the President really sidelines all of his advisors. I do 
not think there is anybody that can reliably speak for the 
President including the Vice President. Most notably, when he 
came to Congress to cut a budget deal and on his way back to 
the White House it was undone. I think that makes it even more 
difficult because it is hard enough for Americans to read the 
President, American politicians; I suspect it is even harder 
for folks who are overseas.
    I yield back.
    Chairman Engel. Thank you.
    This concludes our hearing. Let me first announce how we 
are going to work this. First, I want to thank the witnesses 
for outstanding testimony and when you signed up for this I 
know you did not think it was going to be this long. But as you 
can tell we had very thoughtful members on both sides who 
really had a lot of good questions to ask. I know I have 
learned a lot and I am sure everybody has as well. So we are 
going to give you a couple of minutes to leave and I want to 
thank you again.
    And then we will conclude--we will begin the markup 
immediately after, say, in a minute or two. I want to thank you 
very much for coming and thank you for your time.
    Mr. Singh. Thanks very much, Mr. Chairman.
    Chairman Engel. What we are going to do is begin our markup 
shortly and return after floor votes to conclude the markup. 
There is going to be floor votes at what time, now, 
momentarily. And so the hearing is now adjourned and in a 
minute or so we are going to start the next phase and Mr. 
McCaul and I are going to start with our opening statements and 
then we are going to have everybody come back to make remarks 
after the votes and to vote after the votes.
    [Whereupon, at 1:31 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             

                                 <all>
</pre></body></html>
